<html>
<title> - BEYOND IRAQ AND SYRIA: ISIS' GLOBAL REACH</title>
<body><pre>[Senate Hearing 115-752]
[From the U.S. Government Publishing Office]


                                                  S. Hrg. 115-752
                                                  
                                                  
           BEYOND IRAQ AND SYRIA: ISIS' GLOBAL REACH

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 8, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-765 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                   Available via the World Wide Web:
                         http://www.govinfo.gov


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2
Vidino, Lorenzo, Ph.D., Director, Program on Extremism, George 
  Washington University, Washington, DC..........................     3
    Prepared statement...........................................     5
Byman, Daniel, Ph.D., Professor and Senior Associate Dean, 
  Georgetown University SchooL of Foreign Service; Senior Fellow, 
  Center for Middle East Policy, Brookings Institution, 
  Washington, DC.................................................    11
    Prepared statement...........................................    13

              Additional Material Submitted for the Record

Response of Dr. Lorenzo Vidino to Question Submitted By Senator 
  Todd Young.....................................................    34
Responses of Dr. Daniel Byman to Questions Submitted By Senator 
  Todd Young.....................................................    35
Response of Dr. Lorenzo Vidino to Question Submitted By Senator 
  Cory Booker....................................................    37
Response of Dr. Daniel Byman to Question Submitted By Senator 
  Cory 
  Booker.........................................................    37


                             (iii)        

 
               BEYOND IRAQ AND SYRIA: ISIS' GLOBAL REACH

                              ----------                              


                         THURSDAY, JUNE 8, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Flake, 
Young, Isakson, Paul, Cardin, Murphy, Kaine, and Merkley.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order. We thank you for being here.
    There are some other things happening this morning, so my 
guess is this may not be particularly well-attended, but I know 
that you know that the record is useful for us in developing 
policy.
    We thank you both for being here. And Ben and I are pulled 
in multiple directions this morning in addition to the fact 
that there are other conflicts. But we again thank you so much 
for being here.
    We had a classified briefing earlier this week to walk 
through some of the things that cannot be discussed publicly, 
so building on that and having you here today is going to be 
something very beneficial to all of us.
    So the committee has now come to order.
    We are going to examine, as you all know, the transnational 
threat posed by ISIS. This is an important time to talk about 
ISIS and its global reach. In the last few weeks, we have all 
witnessed the disturbing violence ISIS is inspiring, enabling, 
and directing outside the Middle East: the attacks in London 
and Manchester, the violence against Coptic Christians in 
Egypt, the attempted seizure of a city in the Philippines. Here 
in the U.S., we have faced our own ISIS-inspired attacks.
    A lot of these attacks have occurred as ISIS has lost 
increasing amounts of territory in Iraq and Syria. This reality 
does beg the question of what more should be done and do our 
tactics need to evolve, particularly as the operation to retake 
Mosul nears an end and Syrian opposition forces begin to enter 
Raqqa.
    You might expect the threat to diminish as ISIS loses its 
capital, but recent events indicate that may not be the case. 
The wars in Iraq and Syria have served as a training ground for 
terrorists, and ISIS has a media operation unrivaled by its 
peers.
    Tens of thousands of foreigners have fought on behalf of 
ISIS, including thousands of Westerners. They can return home. 
They can also regroup and fight in another country.
    The affiliates are also holding territory and continue to 
conduct operations, despite increased counterterrorism pressure 
in places like Libya. The affiliates are, after all, the 
perpetrators of many of these attacks and a threat to stability 
in many parts of the world.
    So we welcome you today. We have challenging issues to deal 
with. We want to thank you for appearing before our committee. 
I look forward to your testimony.
    And I will now turn to our distinguished ranking member, 
Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, thank you very much for 
convening this hearing.
    You are correct. There is a lot going on today, including 
the hearing in the connected building that is getting a lot of 
attention. And we have a major bill on the floor dealing with 
Iran sanctions, and we are also looking at sanctions against 
Russia.
    So there is a lot going on, but this hearing is extremely 
important, and I thank you for convening it, as we look at the 
impact of ISIS beyond just Iraq and Syria.
    The recent attacks, as the chairman pointed out, in London, 
Manchester, Paris, Melbourne, Tehran, is a reminder ISIS's 
reach is well-beyond just the countries of Syria and Iraq. The 
ongoing violence of Marawi also points out the danger of a 
growing influence.
    Yes, we have been successful in shrinking the self-
proclaimed caliphate that started with a strategy under the 
Obama administration, is continuing under the Trump 
administration, as we have been able to take Mosul, and Raqqa 
is not far behind. We see the shrinking of the caliphate.
    We also see the shrinking in the number of fighters that 
ISIL has been able to accumulate. It had, we believe, as high 
as 30,000. It could be now as low as 12,000. So we are having a 
major impact.
    But there has been intensification of concerns globally, 
and we have seen that. Affiliate groups are popping up in 
Pakistan, Afghanistan, the Caucasus, West Africa, Egypt, Libya, 
Yemen, Saudi Arabia, the Philippines, and elsewhere. So we 
should have major, major concerns.
    Of course, we have the lone wolf attacks, and we have the 
radicalization of individuals in many countries, some claiming 
affiliation with ISIL. Whether they are or not, we don't know, 
but they are certainly motivated by ISIL.
    So what should our strategy be? Yes, we need to utilize the 
military, intelligence, and law enforcement. That is a very 
important part of it, and we have certainly put attention to 
that. But the U.S. leadership must go beyond that.
    First, we need to work with our partners, so they 
understand how to distinguish between their efforts to get 
after terrorists versus the civilian population. Too many of 
our strategic partners have been extremely careless, dangerous, 
in the manner in which they have gone after these extremists, 
causing major resentment and loss of life within the civilian 
population. We must do better there.
    We must use best practices of integrating cooperation, 
especially with the intelligence community. There is still too 
much falling through the cracks.
    And we must have robust attention to good governance, human 
rights, anticorruption, and development efforts. Otherwise, you 
create a void in which extremist groups just come back.
    Mr. Chairman, as we said in many hearings, it would be good 
to have the administration come forward and articulate their 
policy, because, quite frankly, I have not heard the President 
articulate a coherent policy in this area. We do need to be 
concerned about the Trump administration moving to 
relationships with authoritarian regimes that are repressive to 
peaceful opposition that has long-term costs to American 
security interests. The travel ban on Muslims obviously affects 
our ability to deal with this issue. And the fiscal year 2018 
budget submitted by the President, one which both Democrats and 
Republicans have rejected, would also compromise our ability to 
deal with this.
    Let me just conclude on this. Earlier this week, I 
participated in a celebration on the 70th anniversary of the 
Marshall Plan. The Marshall Plan was really a turning moment 
for the United States. It is where the United States picked 
engagement versus isolation within the framework of democracy, 
human rights, good governance, that we would help rebuild 
Europe for those countries that were interested in maintaining 
those values. As an end result, with a very modest investment, 
I believe it was $13 billion, we were able to form the 
transatlantic partnership, which has been so critically 
important to United States' national security interests.
    We need to figure out ways that we can build upon that 
model in order to deal with the challenges we have against 
ISIS. And I think we can learn from our two witnesses that are 
here, and I look forward to your testimony.
    The Chairman. Thank you very much.
    We will now turn to our witnesses.
    Our first witness is Dr. Lorenzo Vidino, director of George 
Washington University's Program on Extremism. Our second 
witness is Dr. Daniel Byman, senior associate dean of 
Georgetown University's School of Foreign Service.
    We thank you both for being here. I think you all know we 
would appreciate it if you would summarize your written 
comments in about 5 minutes, and then we will have questions.
    Without objection, your written testimony will be part of 
the record.
    If you would just begin in the order introduced, again, 
with our appreciation for you being here.

   STATEMENT OF LORENZO VIDINO, PH.D., DIRECTOR, PROGRAM ON 
    EXTREMISM, GEORGE WASHINGTON UNIVERSITY, WASHINGTON, DC

    Dr. Vidino. Chairman Corker, Ranking Member Cardin, 
esteemed members of the committee, thank you for the 
opportunity to speak before you today.
    As the Islamic State is losing territory, as you said, we 
can predict some likely developments. In Iraq and Syria, it is 
likely to morph into a lethal insurgency force, still planning 
attacks in the region and here in the West.
    I think ISIS is also likely to undergo a geographic 
repositioning, becoming more decentralized. I can see two 
developments here, one partially relocating to countries in the 
region. I would highlight Tunisia and Turkey as two countries 
of particular concern. And I think as you said, ISIS will rely 
more on affiliates worldwide.
    Allow me to concentrate my remarks more on the dynamics on 
the West. I know Professor Byman will talk more about global 
dynamics.
    The first issue when it comes to the West is returning 
foreign fighters. Many of the estimated 6,000 European and 
North American foreign fighters have already come back, and 
more will in the future. The first challenge is obviously 
detecting them, but the second equally severe challenge is 
determining what to do with them.
    Arresting them is the immediate, easy answer. The reality, 
however, is much more complicated. The example from the U.K. is 
very telling of the challenge. Of the 400 British foreign 
fighters who are known to have returned back from Syria and 
Iraq, only 54 have been convicted.
    There are a lot of reasons why that is. It is a dynamic 
very common to all Western countries, including, to some 
degree, the U.S. It is a mostly legal challenge to prosecution. 
There is a lack of actionable evidence. We know of a lot of 
these people from an intelligence point of view, but we do not 
often have the evidence that can be used against them in a 
court of law.
    We also have to say that foreign fighters are, indeed, one 
of the main challenges. But if we look at it from a numbers 
perspective, not the main one. My center looked at the 51 
attacks we have seen in the West over the last 3 years, and we 
saw that only 18 percent of those attacks were carried out by 
returning foreign fighters. The vast majority were carried out 
by individuals who had little or no affiliation whatsoever to 
ISIS.
    If we look at these 51 attacks, we can also see another 
interesting pattern from an operational point of view, and I 
think it is telling us what is ahead. Only 8 percent of those 
attacks were carried out by individuals who were acting under 
direct orders from ISIS. Those were the big structured attacks, 
like Paris and Brussels. There is a question whether ISIS will 
be able to centrally plan sophisticated attacks in the future, 
as it loses territory. Twenty-six percent of the attacks were 
carried out by individuals who had no connections whatsoever to 
ISIS but were only inspired by the ideology. Sixty-six percent 
of the attacks were carried out by individuals who had some 
kind of connection to the Islamic State, but acted 
independently.
    Let me highlight here a phenomenon, which I think we are 
going to see much more frequently in the future, which is that 
of the virtual planners or virtual entrepreneurs. These are 
individuals who live in ISIS-controlled territory and use 
social media and encryption to connect with jihadist 
sympathizers worldwide, guide them through the planning and 
execution of attacks. We saw that dynamic play out here in 
Garland, Texas, and in many attacks in Europe.
    Looking ahead, it is likely that the caliphate will 
disappear, but ISIS will endure and evolve. The so-called 
virtual caliphate, ISIS's presence online, also ensures its 
future.
    In this environment, we also see a resurgent Al Qaeda. As 
much as we focus on ISIS, we have to see that Al Qaeda has 
gained ground in parts of the Middle East. And I think it is 
debatable what the relationship between the two groups will be. 
I think talk about potential, if not merger, a more peaceful 
coexistence and cooperation between the two at least in some 
parts of the world is that not unlikely.
    But what is clear also is that we face not necessarily just 
a group or a collection of groups, but rather an ideological 
movement. This movement is plagued by division and rivalries, 
which needs to be exploited.
    Ultimately, however, it has a clear vision, and it is 
guided by a strong doctrine. ISIS is just the latest and, 
arguably, most successful incarnation of this movement.
    But even its hypothetical demise is unlikely to cause the 
end of the global jihadist movement. And I think as we get to 
recommendations, I think that is why the ideological part is 
crucially important. We have been somewhat timid over the last 
few years in tackling the ideological appeal not just of one 
specific group, but of jihadist ideology in general.
    I see some encouraging signs in some Middle Eastern 
countries where a lot of our allies, even countries with a 
rather ambiguous relationship with some jihadist groups in the 
past, have taken a very proactive approach in confronting them 
and in confronting the ideology. And I think the U.S. should 
support these efforts and work with them.
    At a tactical level, of course, there are many things that 
can be done. I wrote some of them in my written testimony. It 
goes from preventing the flow of foreign fighters from coming 
back, to having countries have more resources, to challenge the 
issue of returning foreign fighters, to developing sound CVE 
programs.
    I know my time is up, so I want to thank you for the 
opportunity, and I look forward to your questions.
    [The prepared statement of Dr. Vidino follows:]

                  Prepared Statement of Lorenzo Vidino

    Chairman Corker, Ranking Member Cardin, esteemed members of the 
Committee, it is a privilege to speak before you today, thank you for 
the opportunity.
    As the self-declared Islamic State slowly but steadily loses ground 
in Iraq and Syria, questions about what lies ahead are of paramount 
importance. Without clairvoyance, countless factors, some foreseeable 
and some not, will influence future developments. Regarding the former, 
one can reasonably argue that:

 1) Even in the most optimistic of post-Daesh scenarios the territories 
        previously occupied by the group in Iraq and Syria are highly 
        unlikely to enjoy sociopolitical stability and cohesion. It is 
        also likely that Daesh will revert to what it was in its early 
        days, some ten years ago: a lethal insurgent force using 
        tactics ranging from pure terrorism to guerrilla warfare. Its 
        priorities will be to regain the territory it has lost 
        (something it might occasionally be able to do in some areas) 
        and undermine the Iraqi government and the various forces it is 
        battling in Syria, by exploiting sectarian tensions. But it is 
        also likely that it will still seek to plan terrorist attacks 
        throughout and outside the region, including in the West.
 2) It is likely that, with time, Daesh will become a more 
        decentralized, amorphous organization operating in a more 
        asymmetric fashion around the world. This could entail various 
        dynamics:

    a.  Some of its leaders and cadres might relocate to bordering 
        countries. Jordan and Lebanon, with their massive Syrian 
        refugee populations and large indigenous Salafist scenes, are 
        likely to experience severe problems. But arguably even more 
        worrisome is the situation in Turkey, where over the last few 
        years Daesh and other jihadist groups have built an extensive 
        network with very little interference from Turkish authorities. 
        It should be noted that the Turkish government's crackdown 
        after last year's coup has led to purges within the 
        intelligence and law enforcement communities that have arguably 
        weakened the country's counterterrorism capabilities.
    b.  Daesh might also rely more on its affiliates worldwide. The 
        group has established official provinces (wilayat) in Libya, 
        Afghanistan, Yemen, the Sinai Peninsula, Nigeria, the North 
        Caucasus, and East Asia and small groups worldwide have pledged 
        allegiance to Abu Bakr al Baghdadi, the group's leader and 
        self-proclaimed caliph. Many of the regions where Daesh 
        affiliates operate are ungoverned territories or, at best, rife 
        with the conditions conducive to full-scale insurgencies. 
        Clearly, varying local factors in each of these areas can 
        drastically increase or reduce the chances of a regional Daesh 
        resurgence, and the organization's devotion to each region in 
        terms of strategy, resources, and ideological investment 
        varies. However, a situation where Daesh invests considerable 
        support in its affiliate organizations could escalate already 
        simmering conflicts in several countries around the world and 
        the group's ability to plan attacks from there.
    c.  Many Daesh operatives might establish clandestine networks in 
        more politically stable countries in the region and engage in 
        terrorist activities with the goal of destabilizing them. 
        Tunisia, like several other North African countries, is 
        particularly vulnerable to this risk because of the recent and 
        unprecedented Caliphate-bound mobilization of its citizens. 
        Gulf countries might also experience this blowback. In 
        addition, Russia, the Caucasus, and various Central Asian 
        countries are also areas of concern, especially considering the 
        large number of foreign fighters they have provided to Daesh 
        and the prominent role they have played on the battlefield.
                                the west
    In the context of this hearing, the threat to the West deserves a 
separate, more in-depth analysis. A critical concern for 
counterterrorism authorities is that Daesh members fleeing Syria and 
Iraq, particularly those holding Western passports, will travel to 
Europe and North America. While figures vary, the most reliable 
estimates suggest that 6,000 European and North American residents have 
joined Daesh in Iraq and Syria, with the FBI estimating 200-250 having 
traveled or attempted to travel from the United States. A significant 
number of these 6,000 will either a. die or be captured in Syria/Iraq 
b. be captured while trying to leave Syria/Iraq, or c. be arrested 
while entering Europe or North America. However, it is also equally 
clear that not all foreign fighters will meet any of these fates. Some 
will arrive in the West illegally or posing as refugees, as 
demonstrated by the path into Europe taken by some of the November 2015 
Paris attackers. Some will return legally, often using their (real) 
Western passports.
    Detecting returning foreign fighters is only one of the challenges 
facing Western counterterrorism officials. An entirely different, yet 
no less daunting challenge, is determining what to do with those 
identified upon return. Arresting them is the immediate, easy answer. 
The reality, however, is significantly more complicated. The experience 
of our British allies thus far is instructive and exemplifies the 
difficulties European countries have been experiencing in dealing with 
returning foreign fighters, although with different degrees of 
intensity (in that regard, it must be said that the United States 
appears to be better equipped to tackle the challenge). Recently, in 
fact, the Home Office disclosed that of the 400 British foreign 
fighters who have returned from Syria/Iraq only 54 have been convicted 
of an offence.\1\
    What is preventing authorities from arresting, prosecuting and 
convicting returning foreign fighters? It is mostly a legal matter, 
with lawmakers struggling to keep up with a constantly shifting threat 
environment. While legislations vary from country to country, they 
share some common problems. In some countries, joining a terrorist 
organization or fighting in a foreign conflict were not criminal 
offences at the time when most individuals traveled to Syria. Several 
countries have since introduced new laws which, however, cannot be 
retroactively applied. Even in countries where those behaviors have 
long constituted criminal offences, authorities experience enormous 
difficulties in gathering the appropriate evidence needed to build a 
strong criminal case. Having actionable intelligence may not be 
sufficient to meet the legal standard in court.
    Not all returning foreign fighters will be interested in carrying 
out attacks, with some abandoning the ideology altogether. But some 
will, and sorting out who poses a real threat and who does not will be 
a daunting task. Therefore, returning foreign fighters, many of whom 
will be fervent believers, battle-hardened, armed with a rolodex of 
dangerous contacts, and equipped with the know-how to carry out 
attacks, are understandably seen as a significant security threat. And, 
indeed, the most lethal attack against the West in recent years, namely 
the November 2015 Paris attack, was carried out by a network of 
returning foreign fighters dispatched by Daesh.
    Yet, an analysis of all recent jihadist-motivated attacks carried 
out in the West shows some noteworthy dynamics. A soon-to-be released 
report by the George Washington University's Program on Extremism, the 
Italian Institute for International Political Studies (ISPI) and the 
ICCT The Hague examined the 51 successful attacks carried out 
throughout Europe and North America from June 2014, following the 
declaration of the Caliphate, until June 2017. One interesting finding 
showed that of the 65 attackers responsible for 51 attacks, only 18% 
were known to have fought with the group in Iraq or Syria. Individuals 
who had not traveled to Daesh-controlled territory, including some with 
no connections to the group at all, conducted most of the attacks.
                            types of attacks
    The analysis of the 51 attacks carried out in the last three years 
also shows an important operational pattern that could, to some degree, 
indicate what may lie ahead. In fact, from an operational perspective 
the attacks can be divided into three macro-categories:

 a) terrorist attacks carried out by individuals acting under direct 
        orders from Islamic State leadership: 8% of attacks;
 b) terrorist attacks carried out by individuals with no connections to 
        the Islamic State or other jihadist groups, but were instead 
        inspired by their message: 26% of attacks;
 c) terrorist attacks carried out by individuals who were somehow 
        connected to the Islamic State or other jihadist groups but 
        ultimately acted independently: 66% of attacks.

    The first typology, terrorist attacks carried out by individuals 
acting under direct orders from the Islamic State's leadership, follows 
a model frequently utilized by al Qaeda throughout the 1990s and the 
2000s. Osama bin Laden's organization selected individuals from its 
recruitment pool with characteristics which would have made them 
particularly suitable to carry out attacks in the West, trained and 
then dispatched them to complete their mission. After their departure, 
many planners maintained contact with the dispatched team, coordinating 
logistical matters and providing suggestions in case of unforeseen 
problems. Upon completion of the mission, al Qaeda would immediately 
claim responsibility, often through a so-called ``martyrdom video'' 
featuring the attackers explaining their motivations. The attacks of 
July 7, 2005 in London are the archetypal example of this externally 
directed attack approach.\2\
    By the second half of 2014, as it became clear that the Islamic 
State was involved in planning attacks in the West, the debate on 
whether the group possessed al Qaeda's ability, sophistication, and 
patience to plan externally directed attacks raged among experts. The 
first attacks that had some connections to the group seemed to suggest 
it did not. They appeared to be the work of isolated individuals who 
possessed few of the skills and planning abilities of a more 
experienced terror cell. Therefore, many assumed that the group had 
focused all of its energy on the Middle Eastern front and, where the 
West was concerned, it was satisfied with haphazard attacks carried out 
by sympathizers.
    Many of those assumptions were proven wrong on the night of 
November 13, 2015, when an Islamic State sleeper cell conducted three 
separate and near-simultaneous attacks in Paris. Roughly four months 
later, on March 22, 2016, the remnants of the very same cell conducted 
a series of coordinated suicide bombings on the Brussels metro system 
and airport. Not all of the details regarding the Paris and Brussels 
attacks are known today. Yet, with time, it has become clear that the 
attacks were conceived and planned abroad by a francophone unit within 
the Islamic State's foreign operations service, known as the Emni. The 
formation of this francophone faction within the Emni is likely the 
main reason why France and Belgium have suffered a disproportionate 
number of attacks, as the members of the unit have leveraged their own 
personal contacts (both online and offline) in those two countries.
    While their details are, at this stage, largely unknown, it appears 
that Daesh had planned additional complex and remotely controlled 
terrorist attacks in Europe (at the same time, there are no publicly 
available indications that similar operations have ever been planned in 
North America). Fortunately, these plots have all been thwarted, thanks 
largely to the improved levels of information sharing among 
intelligence agencies. The major question currently puzzling the 
counterterrorism community is whether the Islamic State, having 
suffered significant territorial losses and spending most of its energy 
on preventing more, has still maintained the ability to centrally plan 
sophisticated attacks.
    In some cases, operational linkage to the Islamic State was 
uncovered by investigators months after the attack, but 26% of the 
attacks examined for the study appear to have been carried out by 
individuals whose connection to the Islamic State was merely 
ideological. In some cases, perpetrators belonging to this category 
leave messages declaring their allegiance to the Islamic State. Yet 
these individuals carry out the attacks without any form of support or 
even the knowledge of any individual linked to the Islamic State. Some 
of them might have at one time interacted, whether online or in the 
physical space, with members of the group. But once they carry out the 
attack, the group provides no operational support whatsoever, and the 
entirety of the planning and execution process is left to the 
perpetrator(s).
    Some of the attacks carried out by individuals with no operational 
connections have been difficult to categorize as motivated solely by 
support for the Islamic State. In some cases, while perpetrators' 
sympathies for the Islamic State were clear, additional evidence 
suggests that their actions have been additionally motivated by: a. 
other ideologies, b. personal reasons, and/or c. psychological and 
psychiatric issues (note that these three factors, but often to a 
lesser extent, play a role also in the other two typologies).
    One final necessary clarification regarding many of the attacks 
belonging to this category is that they do not seem to be motivated 
solely by support for the Islamic State, but by jihadist ideology writ 
large. The contemporary global jihadist movement is highly fragmented, 
with the various groups often switching between cooperation and 
outright confrontation. In particular, the rivalry between the Islamic 
State and al Qaeda, which was borne out of the Syrian conflict, has 
created fissures that have often transcended into violence between 
jihadist groups worldwide. Yet, when it comes to most aspiring 
jihadists in the West, particularly those who have not developed 
operational ties to an established group, rifts are of minor 
significance. It is therefore not surprising that many attacks were 
carried out by individuals who declared their devotion to a variety of 
jihadist figures and groups.
    A quintessential (but hardly isolated) example of attackers' 
seemingly contradictory allegiances is the case of Omar Mateen, the man 
responsible for the June 12, 2016 mass shooting at the Pulse nightclub 
in Orlando, Florida that killed 49 and wounded 53 people.\3\ During the 
attack, Mateen pledged allegiance to Abu Bakr al-Baghdadi and the 
Islamic State in an emergency call, and later Daesh media outlets 
claimed responsibility for the attack.\4\ However, Mateen's loyalties 
were indicative of the ``choosing and fusing'' of ideologies often 
demonstrated by attackers without tangible connections to any group.\5\ 
Mateen, despite his final pledge of allegiance, had previously 
expressed support for Daesh and Jabhat al-Nusra on social media, and 
also claimed to be a member of Hizbullah.\6\ While changes in 
affiliation between Daesh and al-Nusra, two groups with generally 
similar ideologies but different strategies and leadership disputes are 
more common amongst Western jihadists, the Hizbullah claims put Mateen 
on both sides of the Sunni-Shi'a divide.
    Like many other Western jihadists, Mateen was attracted to the 
broader jihadist ideology more than to a specific group. From a 
counterterrorism perspective, understanding, and eventually exploiting, 
the complex dynamics within the global jihadist movement is of 
paramount importance. However, those leadership fissures should not be 
overemphasized when it comes to the grassroots level, particularly in 
the West. Most aspiring jihadists simply want to fight jihad and regard 
squabbles between jihadist leaders as distant, confusing, annoying, and 
counterproductive. In many cases, they join or sympathize with a 
jihadist group not because they have a clear preference for one over 
the others, but rather because of chance encounters and logistical 
circumstances. Group affiliation is in most cases less important than 
identification, albeit to varying degrees, with the central tenets of 
Salafi-jihadist ideology.\7\
    The majority (66%) of the attacks seen throughout the West over the 
last three years fall within a hybrid category, not externally directed 
but also not completely independent. Dynamics are at this stage 
difficult to assess, given the lack of detailed information on many 
cases. However, several attacks appear to be crowd sourced, meaning 
they are carried out by individuals who possess some degree of 
operational connectivity to the Islamic State, but act with almost 
complete autonomy when carrying out the attack. This dynamic allows the 
Islamic State to obtain a high return in terms of publicity despite the 
low investment in resources. By the same token, perpetrators who 
associate themselves to the Islamic State amplify the propaganda value 
of their actions and boost their chances of being glorified within the 
global jihadist community.
    Mounting evidence suggests that this hybrid dynamic has been 
further bolstered by the growth of the phenomenon of ``virtual 
entrepreneurs''. The Islamic State's virtual planners are individuals 
who, using social media and encrypted online messaging platforms, 
connect with would-be attackers in countries outside of Islamic State-
held territory and guide them through the planning and execution of 
terrorist attacks.\8\ By directing attacks from abroad, the Islamic 
State drastically expands its reach and its ability to manage and plan 
attacks overseas.\9\
    The Islamic State's virtual entrepreneurs are usually located in 
the territory the group holds, are skilled in the use of cyber 
resources, and have ties to the leadership of the organization. They 
are divided by nationality and language skills, and are tasked with 
identifying and grooming potential attackers who speak the same 
language online. The identification process for attackers includes 
virtual planners finding vocal supporters of the Islamic State on 
social media platforms such as Facebook and Twitter, initiating contact 
and conversation with them via encrypted messaging platforms like 
Telegram, SureSpot, Kik, and Whatsapp, and instilling them with the 
operational knowledge necessary to begin planning an attack.\10\ 
Individuals like Rachid Kassim and Junaid Hussain in the French and 
English speaking scene respectively are perfect examples of virtual 
planners.
                  future scenarios and recommendations
    As seen, a hypothetical demise of the Caliphate is not likely to 
mean that Daesh will disappear. Some members of the group will stay in 
Syria and Iraq and continue to fight. Others will export their violence 
to other areas, from ungoverned territories to urban centers, in other 
parts of the Middle East and North Africa, and the West.
    The Daesh brand and the emotional appeal of its declared Caliphate 
are also unlikely to vanish any time soon. The existence of a 
territorial entity with a self-declared religious significance made 
Daesh the world's most notorious jihadist group, somewhat eclipsing al 
Qaeda, and simultaneously allowed the group to establish a global 
network and plan operations worldwide. Although the loss of territory 
may undermine the legitimacy of the organization to some extent, the 
so-called virtual Caliphate ensures a future for Daesh. Despite 
critical challenges, their digital efforts may rekindle commitment and 
support for the group's cause among sympathizers worldwide and prompt 
some to carry out terrorist attacks in its name.
    It should also be noted that various indications also point towards 
a resurgent al Qaeda. Despite its uneasy relationship with al Qaeda 
Central, Jabhat Fateh al Sham (previously known as Jabhat al Nusra), 
has quietly but surely carved out a de-facto mini-state in parts of 
Syria. Furthermore, al Qaeda in the Arabian Peninsula (AQAP) has been 
experiencing ups and downs during the ongoing Yemen war, and while it 
no longer controls a sizeable region (as it did at some point), it is 
still a vibrant branch of the global organization actively planning 
attacks against the West. There are also rumors of a revamped 
leadership structure within al Qaeda Central. While all these dynamics 
need to be carefully assessed, it would be erroneous to treat al Qaeda 
as obsolete.
    The counterterrorism community is currently debating what the 
relationship between a declining Daesh and a seemingly resurgent al 
Qaeda is and will be. Over the last few years the competition between 
the two groups has played out on a global scale. It is not currently 
clear whether these dynamics will continue or whether, as some have 
argued, the two groups, having a common history, ideology and aims, 
will reconcile their differences, work together, and even merge. It is 
also likely that these dynamics might play out in different ways in 
different places. Understanding and eventually exploiting the complex 
and ever-fluctuating chasms within the global jihadist movement is 
crucial.
    What is clear though is that what we have faced, are facing and 
will be facing in the future is not a group or a collection groups, 
but, rather, an ideological movement, namely the global jihadist 
movement. This movement is not homogenous but, rather, plagued by 
divisions and rivalries. Ultimately however, it has a clear vision and 
is guided by a strong doctrine. Daesh is just the latest and arguably 
most successful incarnation of this movement. Daesh's vicissitudes are 
hugely important in shaping the future of this movement. But even its 
hypothetical demise is unlikely to cause the end of the global jihadist 
movement.
    It is exactly because of the paramount importance of the 
ideological component, that in briefly providing my recommendations on 
how to better prevent terrorist attacks worldwide and in the United 
States, I will begin with the centrality of tackling the ideology that 
motivates Daesh, al Qaeda, their affiliates, and unaffiliated jihadis 
worldwide. Over the last few years we have been somewhat timid in 
fighting this admittedly daunting battle. I do see encouraging signs 
from the Middle East, where various countries (even some that 
previously had not recognized the problem or even contributed to its 
expansion) have engaged in a full-fledged ideological battle against 
not just Daesh and jihadist ideology, but the broader Islamist ideology 
as well. Likely, these efforts will not bear fruit for a number of 
years as the jihadist ideology has been sustained for and solidified by 
countless socioeconomic, religious, and political factors. And while 
this complex battle has multiple, overlapping layers, it is noteworthy 
that most Middle Eastern countries recognize that religious engagement 
is one of its key aspects.
    At the tactical level, more immediate results can be achieved 
through a combination of international and local efforts. Of the many, 
let me emphasize four:

   Prevent foreign fighters from leaving Syria/Iraq. This goal could 
        be better achieved through aggressive military tactics that 
        prevent Daesh fighters from fleeing the battlefields and from 
        sealing Syria and Iraq's external borders. Turkey's role in 
        these efforts is crucial.

   Improve information sharing among intelligence and law enforcement 
        agencies (internationally but also domestically within each 
        country). In an ideal world, the goal would be the creation of 
        a global database of foreign fighters and their milieus which 
        countries would update in real time. However, in reality, 
        countless factors, including political rivalries and 
        bureaucratic sluggishness make information sharing, even among 
        close allies, very challenging.

   Increase resources for law enforcement and intelligence agencies. 
        From the Paris attacks to, more recently, the London Bridge van 
        ramming, from the San Bernardino shooting to the Manchester 
        suicide bombing, the vast majority of terrorist attacks carried 
        out in the West over the last three years were perpetrated by 
        individuals who were known to authorities. In most cases these 
        individuals had appeared on the authorities' radar only 
        peripherally and were not of high priority. One of the main 
        reasons why officials cannot conduct further investigations and 
        surveillance on known extremists who have not yet crossed the 
        threshold of criminally relevant behavior is the limited 
        resources they possess in order to keep tabs on a burgeoning 
        number of jihadist sympathizers. An increase in resources will 
        not constitute a silver bullet but will allow authorities to 
        expand the number of known extremists it can monitor.

   Implement Countering Violent Extremism (CVE) initiatives. As it is 
        now almost universally accepted throughout the counterterrorism 
        community, repressive methods alone are unlikely to defeat 
        terrorism. Whether they entail counter-messaging campaigns, 
        grassroots activities or tailored interventions aimed at de-
        radicalizing specific individuals (an especially important 
        endeavor when trying to tackle the issue of returning foreign 
        fighters), CVE activities are a necessary complement to 
        traditional counterterrorism work. They are hardly infallible 
        and indeed many need to be perfected (and some, to be honest, 
        completely scrapped). CVE programs will not always work 
        perfectly, and realistically, the goal of CVE should be threat 
        reduction, not threat elimination. However, it has also become 
        increasingly clear that CVE needs to be part of any 
        comprehensive counterterrorism strategy.

    Chairman Corker, Ranking Member Cardin, esteemed members of the 
Committee, these are just some initial thoughts on this very important 
and complex matter. I thank you again for this opportunity and look 
forward to your questions.

------------------
Notes

    \1\ Robert Mendick and Robert Verkaik, ``Only one in eight 
jihadists returning to UK is caught and convicted,'' Telegraph, May 21, 
2016.
    \2\ ``Report of the Official Account of the Bombings in London on 
7th July 2005.'' 2006. http://news.bbc.co.uk/2/shared/bsp/hi/pdfs/11--
05--06--narrative.pdf.
    \3\ Steve Visser, ``Orlando Killer Repeatedly Referenced ISIS,'' 
CNN, September 24, 2016.
    \4\ Ibid.
    \5\ Paige Pascarelli, ``Ideology A La Carte: Why Lone Actor 
Terrorists Choose and Fuse Ideologies.'' Lawfare, October 2, 2016.
    \6\ Adam Taylor, ``Omar Mateen May Not Have Understood the 
Difference between ISIS, Al-Qaeda and Hezbollah.'' Washington Post. 
June 13, 2016.
    \7\ Sarah Gilkes, Not Just the Caliphate: Non-Islamic State-Related 
Jihadist Terrorism in America, GW Program on Extremism. 2016.
    \8\ Alexander Meleagrou-Hitchens and Seamus Hughes, ``The Threat to 
the United States from the Islamic State's Virtual Entrepreneurs.'' CTC 
Sentinel 10 (3), 2017.
    \9\ Daveed Gartenstein-Ross and Madeleine Blackman, ``ISIL's 
Virtual Planners: A Critical Terrorist Innovation.'' War on the Rocks. 
January 4, 2017.
    \10\ Meleagrou-Hitchens and Hughes, ``The Threat to the United 
States from the Islamic State's Virtual Entrepreneurs''

    The Chairman. Thank you very much. That was very, very 
helpful.
    Go ahead, sir.

    STATEMENT OF DANIEL BYMAN, PH.D., PROFESSOR AND SENIOR 
    ASSOCIATE DEAN, GEORGETOWN UNIVERSITY SCHOOL OF FOREIGN 
    SERVICE; SENIOR FELLOW, CENTER FOR MIDDLE EAST POLICY, 
             BROOKINGS INSTITUTION, WASHINGTON, DC

    Dr. Byman. Chairman Corker, Ranking Member Cardin, members 
of this distinguished committee, thank you for this opportunity 
to testify.
    In the past, the Islamic State focused on protecting its 
territory and trying to expand it. As it has been hit hard in 
the last 2 years, the growth in international terrorism is, 
unfortunately, somewhat predictable. This is a sign that the 
organization is under pressure, and we should expect continued 
attempts at terrorism as the organization seeks to stay 
relevant and as it tries to exercise a certain degree of 
revenge against those who have attacked it and those it blames 
for the loss of the caliphate.
    One bit of good news in all this horror is that attacks on 
the United States have been less than many people anticipated. 
Several factors explain this, in my judgment.
    One is simply distance. It is harder to get to the United 
States from Syria and vice versa, and that distance helps 
protect the United States.
    Another is the relatively small number of Americans who 
sympathize with the Islamic State or its ideology compared to 
many of our allies.
    A third is an American Muslim community that is generally 
well-integrated and cooperates regularly with law enforcement. 
Many plots are disrupted because this community works closely 
with the FBI and police.
    The aggressive campaign abroad, I will single out the drone 
campaign, has also made it harder for the Islamic State to plot 
sophisticated attacks on the United States.
    And last has been aggressive security service action in the 
United States. The FBI, at times, catches individuals whose 
plans might have gone nowhere, but they also stop some 
potential attacks before they manifest.
    One thing that is often ignored is that the Islamic State 
poses a direct danger also to U.S. interests in the Middle 
East. The Islamic State has made a home in warring or 
ungoverned areas in the Middle East, exploiting conflict there. 
And the wars and associated terrorism, and decreased stability 
in the Middle East, can harm U.S. interests there.
    The United States, unfortunately, is not fully prepared for 
the group's defeat or the loss of its territory in the 
caliphate. But the Islamic State is preparing for this already. 
It has quite publicly told its followers that it is preparing 
to go underground, and it calls up its efforts at the end of 
the last decade in Iraq where, in response to the success of 
the U.S.-led surge, it went underground, conducted a campaign 
of assassination and subversion, and was able to wage, over 
time, a successful insurgency and then come roaring back when 
the moment came.
    Our current allies in Iraq and Syria at the local level and 
the national level in Iraq are not prepared to govern. They are 
not prepared to conduct counterinsurgency operations on their 
own. And, indeed, in the long term, it is very unclear who 
exactly these allies will be, as the durability of the U.S. 
coalition in both countries is uncertain. And as my colleague 
has pointed out, it is unclear if the United States or its 
allies are prepared for the likely return of many foreign 
fighters.
    President Trump has continued several positive 
counterterrorism policies but also undertaken several 
initiatives that risk aggravating the terrorism problem.
    The administration has improved relations with important 
allies like Saudi Arabia and continued and even accelerated the 
military campaign begun under President Obama, which is driving 
the Islamic State from its strongholds. However, President 
Trump's blanket embrace of the Saudi position in the Middle 
East will heighten sectarianism, which feeds the Islamic State.
    In addition, the administration's anti-Muslim rhetoric, and 
policies that alienate some American Muslims, increase the risk 
of radicalization, and also discourage cooperation between 
these communities and police and intelligence services. The 
President's criticism of key allies in moments of crisis, such 
as his public criticism of London's mayor as that city grieved 
after a terrorist attack, miss opportunities to bring our 
allies closer together under U.S. leadership.
    One area where our country needs to make broader progress, 
and this crosses administrations, is institutionalization. 
Since 9/11, the executive branch has been the one executing 
counterterrorism policy and designing it, with some 
modification by the courts. Under Presidents Bush and then 
President Obama, new and controversial counterterrorism 
instruments--targeted killings, aggressive FBI sting 
operations, detention without trial--they became the center of 
U.S. counterterrorism with no congressional or little 
congressional input. Congress needs to participate in this 
policy process to ensure that U.S. counterterrorism is on a 
lasting footing.
    Last, the United States needs to improve public resilience 
when it comes to counterterrorism. It remains easy for a 
terrorist group to sow fear in the United States. And the 
current public expectation that there will be no terrorist 
attacks is unrealistic. There were significant attacks on U.S. 
forces around the world, U.S. civilians, under President 
Reagan, and he is correctly seen as strong on counterterrorism.
    We should return to the recognition that some terrorism is 
likely and that a small attack will not damage American morale.
    Thank you for this opportunity.
    [The prepared statement of Dr. Byman follows:]

                   Prepared Statement of Daniel Byman

    Chairman Corker, Ranking Member Cardin, members of this 
distinguished committee, and committee staff, thank you for the 
opportunity to testify.
    The terrorism threat posed by the Islamic State is real but at 
times exaggerated and even more frequently misunderstood. From the 
Islamic State's peak in 2015, the group suffered numerous setbacks, 
losing much of its territory in Syria and Iraq while most of its so-
called ``provinces'' elsewhere in the Muslim world also lost territory 
or stagnated. The Islamic State, however, has demonstrated the 
capability to launch a range of deadly terrorist attacks in Europe, 
Asia, and elsewhere, some orchestrated by the group's senior leaders 
and others carried out by low-level supporters. ``Lone Wolves,'' 
individuals embracing the Islamic State's call for violence but largely 
acting alone, have also attacked the United States. Fortunately, the 
United States has proven less vulnerable than many of its allies due to 
its geographic distance from the conflict, the small number of 
Americans who sympathize with the group, an American-Muslim community 
that works well with law enforcement, disruption of the Islamic State's 
infrastructure abroad, and aggressive security service action at home. 
Nevertheless, we should expect at least some level of jihadist 
terrorism against the United States and especially Europe in the years 
to come.
    The Islamic State poses a direct danger to U.S. interests in the 
Middle East. The Islamic State has made a home in warring or ungoverned 
areas of the greater Middle East, exploiting conflict and weak 
governance in Afghanistan, Egypt, Libya, and elsewhere. The Islamic 
State and other jihadist groups feed on civil wars, making them more 
brutal, more deadly, and harder to resolve. These wars and their 
associated terrorism further decrease stability in the Middle East, 
posing a threat to regional U.S. allies and U.S. interests.
    Although U.S.-led advances against the Islamic State's base in Iraq 
and Syria will likely continue, the United States is not fully prepared 
for the group's defeat. After losing control of key territory, the 
Islamic State may repeat its previous actions when the U.S.-led surge 
brought its predecessor organization in Iraq to the edge of defeat: go 
underground, disrupt politics in these countries, wage an insurgency, 
and then come roaring back. Current local allies in Iraq and Syria are 
unprepared to govern and conduct effective counterinsurgency 
operations, while the very identity of long-term U.S. allies are 
unclear as Washington lacks a durable coalition in Iraq, let alone in 
Syria. Nor are American regional or Western allies prepared for the 
likely diaspora of returning foreign fighters.
    President Donald J. Trump has continued several positive 
counterterrorism policies but also undertaken initiatives that risk 
aggravating the terrorism problem. The administration has improved 
relations with important allies like Saudi Arabia and continued the 
military campaign that began under former President Barack Obama, which 
is steadily driving the Islamic State from its strongholds in Iraq and 
Syria. However, the administration's anti-Muslim rhetoric and policies 
will likely alienate some American Muslims, increasing the risk of 
radicalization and discouraging cooperation between these communities 
and police and intelligence services. In addition, the administration's 
blanket embrace of the Saudi position in the Middle East will heighten 
sectarianism, which feeds the Islamic State. Finally, declines in 
foreign aid, the State Department budget, and national security 
personnel diminish U.S. diplomacy and the United States' ability to 
resolve conflicts, which are necessary for fighting the Islamic State 
and preventing it from spreading to new areas.
    The remainder of my statement has three sections. I first provide 
an overview of the Islamic State threat and why I judge the danger to 
the U.S. homeland to be real but manageable but the danger to be Europe 
and especially the Middle East far greater. Second, I describe several 
problems that I believe will likely manifest in the current 
administration's unfolding counterterrorism policy. In the third 
section, I offer recommendations for U.S. counterterrorism policy.
                        understanding the threat
    The Islamic State poses a real but manageable threat to the U.S. 
homeland. Since the September 11th attacks, 95 Americans have died in 
jihadist-related attacks in the United States. The two deadliest 
attacks, in San Bernardino in 2015 and in Orlando in 2016, which 
together killed 63 Americans, involved individuals who claimed some 
allegiance to the Islamic State but acted independently of the group--
often referred to as ``Lone Wolves.''
    Although any death from terrorism is unacceptable, it is worth 
noting several positive aspects of these numbers. First, the number of 
deaths--95--is far lower than many experts, both inside and outside of 
government, predicted. Second, the individuals involved in both the 
Orlando and San Bernardino attacks did not travel abroad to fight with 
the Islamic State, were not controlled by Islamic State leaders, and 
their violence seemed to mix personal and psychological issues with 
traditional terrorism, suggesting they might have embraced violence for 
other reasons had the Islamic State not existed. Third, although their 
targets--a workplace holiday party in a community center and a gay 
nightclub--show they might strike anywhere, they are hardly the high-
profile, well-guarded targets that gained Al Qaeda popularity. Fourth, 
deaths from terrorism and terrorist plots on the U.S. homeland in the 
post-9/11 era are often below levels for the pre-9/11 era.
    Multiple factors likely explain this relatively low level of 
violence. First, senior U.S. officials overestimated the number of 
radicals in the United States after 9/11 when they spoke of thousands 
of Al Qaeda terrorists in the United States.\1\ Second, the American 
Muslim community regularly works with law enforcement, leading to many 
arrests. As former FBI Director James Comey explained, ``They do not 
want people committing violence, either in their community or in the 
name of their faith, and so some of our most productive relationships 
are with people who see things and tell us things who happen to be 
Muslim.'' \2\ Almost half of all tips on potential extremist 
individuals come from the American Muslim community.\3\ (Indeed, a 
member of the local Muslim community reported the Pulse nightclub 
shooter to the FBI before the attack.) Additionally, U.S. efforts 
abroad, notably targeting terrorist leaders in their sanctuaries, 
exacerbates the leaders' ability to organize, train, and plot attacks, 
particularly ``spectaculars'' that require years to plan and 
orchestrate. This disruption also hinders the group from accessing the 
United States. Finally, the massive increase in funding and 
aggressiveness of the FBI and foreign-oriented intelligence agencies 
enabled a broader effort to disrupt potential attackers, foreign 
fighters, and other radicals. Global intelligence cooperation in 
particular resulted in the identification and disruption of numerous 
potential terrorist plots. Similarly, the FBI's efforts at home, while 
at times leading to arrests of individuals who had little or no chance 
of conducting an attack, led to the early disruption of some plots that 
might have killed many people.
    Europe presents a grimmer situation, however, as demonstrated by 
recent attacks in London, Manchester, Nice, Paris, and elsewhere. In 
Europe, there are more radicalized Muslims relative to their overall 
population, as suggested by the dramatically higher number of foreign 
fighters from European states relative to their populations. Indeed, if 
we were to count only European Muslims as citizens (i.e. to focus on 
the relative percentage of Muslims radicalized), Europe would have a 
higher number of foreign fighters in Syria per capita than any Arab 
country.\4\ In addition, many European Muslims integrate poorly into 
their broader communities, which discourages them from cooperating with 
intelligence and law enforcement services. Furthermore, jihadis and 
returning foreign fighters from Iraq and Syria can more easily travel 
to Europe than the United States based on distance alone. Finally, 
European intelligence services vary in skill: some, including France 
and the United Kingdom, are highly skilled while others, such as 
Belgium, are under-resourced and less capable of responding to 
terrorism threats.
    Even in Europe, however, the situation is often less dire than 
commonly portrayed. Europe experienced considerable acts of terrorism 
in the pre-9/11 era. By most analyses, the European terrorism problem 
in the 1970s and 1980s was significantly worse than it is today. State 
sponsors like Iran and Libya, nationalist groups like the Provisional 
Irish Republican Army and Basque separatists, and left-wing groups like 
Greece's November 17 all carried out numerous attacks that killed 
hundreds of Europeans. Indeed, the biggest terrorist attack in the 
modern era in Europe occurred in the pre-9/11 era: the bombing of Pan 
Am 103 over Lockerbie, Scotland in 1988 that killed 270 people.\5\
    The Islamic State, Al Qaeda, and the broader jihadist movement pose 
a yet bigger threat in the Middle East. These groups did not cause the 
civil wars in Iraq, Libya, Syria, and Yemen, but they have exacerbated 
them, transforming local struggles based on parochial grievances to 
wars with a strong jihadist component. In addition, the Islamic State 
introduced especially bloody and horrific tactics, such as beheadings, 
and enforced a grim and brutal interpretation of Islamic law in areas 
that they control. Furthermore, the group uses massive amounts of 
terrorist-type tactics in war: they claimed over 100 suicide attacks in 
Iraq and Syria in May 2017 alone. The Islamic State's horrific violence 
complicates negotiations as they are not an acceptable voice at the 
negotiating table yet remain a force on the ground. In addition, they 
further complicate negotiations by trying to regionalize or 
internationalize local conflicts. For example, the Islamic State's 
province in Gaza downed a Russian airplane in 2015, and the central 
Islamic State reportedly carried out terrorist attacks in Turkey, Saudi 
Arabia, Jordan, and Lebanon. In addition to being deadly, these attacks 
often degrade politics in these countries, lead to additional meddling 
in the Syria conflict, or otherwise worsen regional stability and hurt 
U.S. interests in the region.
    The Islamic State's loss of territory in Iraq and Syria has 
dramatic implications for the terrorism threat. In the long-term, this 
loss of ground is good news and will deprive it of a haven in which to 
recruit, organize, and plan attacks. In addition, part of the group's 
appeal was that it successfully defied the world to ``create'' a true 
Islamic State--claims that are now easy to refute. Not surprisingly, 
the number of foreign volunteers joining the group plummeted in the 
last year, and its budget, which relies heavily on ``taxing'' local 
territory, also declined.\6\
    This loss of territory and resources, however, increases the 
Islamic State's desire to conduct international terrorism. The group 
has long prioritized creating, maintaining, and expanding an Islamic 
State; but as this goal becomes impossible, it will require high-
profile actions to stay relevant. International terrorism offers a 
means to strike its enemies and prove to potential supporters that the 
group remains active and deserves their backing. Thus, it is 
unsurprising that the group has conducted more international attacks as 
it has suffered setbacks and shifted from urging its followers to act 
at home instead of traveling to Syria. This pattern may also apply to 
its so-called provinces that might focus internationally as their local 
ambitions fail.
    Increased ``Lone Wolf'' attacks are particularly likely. The trend 
towards ``Lone Wolf'' attacks has grown: although the absolute number 
of attacks remain low, the scholar Ramon Spaaij found that the number 
of ``Lone Wolf'' attacks since the 1970s grew nearly 50 percent in the 
United States and by more than 400 percent in the other countries he 
surveyed.\7\ The Internet and social media explain part of this 
increase as both aid the Islamic State in inspiring individuals to act 
in its name. In addition, as "New York Times" reporter Rukmini 
Callimachi discovered, the Islamic State used social media to provide 
at least limited guidance to many attackers overseas, bridging the 
historic gap between a top-down orchestrated attack and a ``Lone Wolf'' 
strike.\8\ Finally, would-be fighters who do not travel pose a danger: 
according to one 2015 study of the terrorist plots in the United 
States, 28 percent of returned foreign fighters participated in a plot, 
but a staggering 60 percent of those who considered but did not attempt 
to travel became involved in a terrorist plot.\9\
    Although the Orlando attack suggests that ``Lone Wolf'' attacks can 
be bloody, most ``Lone Wolves'' are incompetent; they are unlikely to 
succeed compared to attacks by trained foreign fighters who return to 
their home countries.\10\ But ``Lone Wolves'' have a strategic impact 
by altering politics in the United States and Europe, thus shattering 
relations between Muslim and non-Muslim communities so vital to 
counterterrorism and to democracy itself. ``Lone Wolf'' attacks 
increase Islamophobia in the West. After attacks in Paris and San 
Bernardino, concerns about terrorism spiked.\11\ In the weeks following 
the Paris attacks in November 2015, London's Metropolitan Police 
Service announced that attacks targeting Muslims had tripled.\12\ 
Meanwhile in the United States, assaults against Muslims have increased 
to nearly 9/11 era levels according to analysis by the Pew Research 
Center based on FBI crime statistics.\13\
    This Islamophobia also can begin a dangerous circle. As communities 
become suspect, they withdraw into themselves and become less trustful 
of law enforcement, which results in providing fewer tips. In contrast, 
if a community has good relations with the police and society, fewer 
grievances exist for terrorists to exploit and the community is more 
likely to point out malefactors in their midst. Even though he was 
never arrested, the attacker in Orlando came to the FBI's attention 
because a local Muslim was concerned by his behavior and reported 
him.\14\
    Such problems risk fundamental changes in politics and undermine 
liberal democracy. Far-right movements are growing stronger in several 
European countries. In the United States, Islamophobia and fears of 
terrorism--despite the lower level of attacks on U.S. soil than 
anticipated since the 9/11 attacks--have fueled the rise of anti-
immigrant politics.
             assessing changes in the trump administration
    In several important areas, the Trump administration continued the 
policies of its predecessors. The administration has continued the 
military campaign against Islamic State forces in Iraq and Syria, 
although it appears to have slightly loosened restrictions on military 
commanders and deployed additional forces to Syria, nearly doubling the 
number of previous forces in the fight for Raqqa.\15\ Additionally, it 
maintained the coalition of states and local actors that the Obama 
administration cobbled together. Furthermore, the aggressive global 
intelligence campaign begun under President George W. Bush and 
continued under Obama remains robust. Together such efforts have 
hindered Islamic State operations and steadily shrunk its territory. In 
addition, the group's various provinces have failed to expand and 
suffered significant blows, as in the case of its most successful 
province in Libya.
    In his first few months in office, however, the President has taken 
several steps that may impede the struggle against jihadist terrorism. 
First, in his campaign rhetoric and through actions like Executive 
Order 13769 (the so-called ``Muslim ban''), the Trump administration is 
demonizing American Muslims and damaging relations between religious 
communities--a traditional source of American strength, pride, and 
values. Such actions increase the allure of the Islamic State and other 
groups that claim that the West is at war with Islam. In addition, 
these actions increase the likelihood that Muslim communities will fear 
the police, FBI, and other government institutions, and thus be less 
likely to cooperate with them.
    Overseas, President Trump embraced the Saudi perspective on the 
Middle East. Saudi Arabia is an important counterterrorism partner, and 
the United States shares several vital interests with the Saudi regime. 
Relations with the Kingdom became strained under Obama, and President 
Trump's efforts to strengthen ties should be commended. However, the 
Saudi government continues to fund an array of preachers and 
institutions that promulgate an extreme version of Islam, enabling the 
Islamic State to recruit and otherwise gain support. In addition, Saudi 
Arabia promotes an anti-Shi'a agenda that harms regional stability and 
fosters sectarianism, a key recruiting tool of the Islamic State. More 
broadly, the disdain for human rights as a foreign policy value adopted 
by the administration advances the argument that the United States 
cares little about the well-being of ordinary Muslims and is 
uncritically on the side of the dictatorial regimes in the Arab 
world.\16\
    At home, administration officials appear highly skeptical of 
programs to counter violent extremism (CVE). Many such programs are 
based on weak data and untested theories and demand scrutiny and 
oversight.\17\ However, many of these programs deserve continued 
support because they offer an often cheap and valuable tool to work 
with communities and could identify and stop potential terrorists. In 
addition, the administration proposed dramatic cuts to the already-
small foreign aid budget and has not staffed the Department of State, 
the civilian arm of the Department of Defense, and other key agencies. 
As a result, the U.S. ability to use a whole-of-government approach to 
combat terrorism is diminished.
    Initial signs suggest that the Trump administration would respond 
poorly to a terrorist attack on U.S. soil. At a time when a president 
should provide steady leadership, President Trump's record suggests he 
might speak or tweet too quickly, without assembling the necessary 
facts or listening to the views of his advisors. His response to the 
London attacks earlier in June needlessly aggravated U.S.-U.K. 
relations at a time when allies should come together. The President has 
lost credibility among many Americans, which will cause the public to 
be skeptical of his claims on the nature of any terrorist attack and 
necessary subsequent actions in the aftermath of an attack.\18\ He may 
seek broad detentions or surveillance or act otherwise in ways that 
might exacerbate the problem in the long-term. After 9/11, the United 
States detained over one thousand Muslims, gaining almost no useful 
intelligence but harming relations with the community. As Daniel 
Benjamin, a former senior counterterrorism official, recalled, 
``Repairing the damage from that crackdown took years.'' \19\
         recommendations for better fighting the islamic state
    One of the biggest challenges for the United States is preparing 
for the military defeat of the Islamic State. The Islamic State is 
preparing to go underground and wage an insurgency, but it will 
nevertheless be diminished in both stature and capabilities. Instead of 
relaxing pressure, the United States must redouble its efforts. This 
will require crafting a sustainable coalition of local allies in Iraq 
and Syria that demands resources, skill, and high-level engagement.
    I have long advocated training allied forces, but this must be 
understood as a limited solution rather than a cure-all. In theory, 
training allies seems a Goldilocks answer to many policy questions: it 
is relatively low-cost, it minimizes direct risk to U.S. forces, and it 
helps reduce terrorism in the long-term when newly capable allies can 
police their own territory. Yet especially in the Middle East, these 
efforts often fail. Despite spending nearly $300 million a year on 
training programs in Iraq, Syria, and elsewhere, U.S.-trained forces 
have often crumbled in the face in the adversary.\20\ Regime 
corruption, divided societies, politicized militaries, and other 
problems plague the region, and U.S. training can only move the needle 
slightly.\21\ Limited progress is better than no progress, but training 
programs must be paired with other policies.
    The United States also must adopt a broader conception of 
counterterrorism, recognizing the link between jihadist terrorist 
groups and civil wars. Resolving these wars is a strategic as well as a 
humanitarian imperative. Programs for conflict resolution and sustained 
U.S.-led diplomacy are vital to ameliorate the effects of civil wars. 
The United States must also support allies on the front line that are 
vulnerable to jihadist meddling, like Jordan, as well as strengthen 
nascent democracies that have a significant jihadist problem, like 
Tunisia.
    Many of the Islamic State's foreign fighters are likely to try to 
disperse. Some may go to Islamic State provinces, while others will go 
to weakly governed states, such as Lebanon, and worsen civil strife 
there. Still other foreign fighters may try to return to their homes in 
Europe, Central Asia, and the Arab world. Washington should coordinate 
an international response to identify and arrest these fighters. In 
addition, the United States should identify ``best practices'' of all 
aspects of the foreign fighter problem, including: programs to dissuade 
individuals from traveling in the first place, intelligence to identify 
fighters before and while they travel, and security service capacity 
for when these fighters return. In addition, the proper laws are 
necessary to govern appropriate action (and to avoid overreacting). 
Each country should be evaluated according to this checklist, and 
potential shortfalls--legal, political, strategic, and so on--should be 
assessed.
    ``Lone Wolves'' cannot be stopped completely, but their numbers can 
be reduced and the resulting threat diminished. One of the most 
important measures involves keeping ``Lone Wolves'' lonely: the less 
``Lone Wolves'' can interact with potential co-conspirators, especially 
dangerous groups that provide direction and training, the less 
dangerous they will be. As such, intelligence gathering and arrests of 
suspected cell leaders and targeting terrorist command and control via 
drone strikes play an essential role in isolating ``Lone Wolves.''
    The Islamic State's heavy reliance on social media to publicize its 
message and share information with recruits is a vulnerability as well 
as a benefit for the group. U.S. intelligence should continue to 
exploit social media to identify potential group members and to disrupt 
their activities.\22\ Such monitoring is particularly important to 
identify potential ``Lone Wolves'' or individuals without a direct 
international connection, as online operatives may encourage them or 
they may post their intentions online as a form of bragging and 
belonging.
    One significant problem is institutionalization. Since 9/11, the 
executive branch has solely executed counterterrorism policy, with some 
modification by the courts. One branch of government, perhaps the most 
important in the long-term, has been conspicuously absent under both 
parties' leadership: the U.S. Congress. Under both Bush and Obama, new 
and controversial counterterrorism instruments--targeted killings, 
increased domestic surveillance, aggressive FBI sting operations, 
detention without trial, and so on--moved to the center of U.S. 
counterterrorism efforts without significant Congressional input. In 
addition, the United States is bombing the Islamic State in both Iraq 
and Syria with only dubious legal justification.\23\
    The dearth of public debate and legislation, regardless of one's 
opinion about the above policies, has created the current environment, 
where either government lawyers engage in legalistic gymnastics to 
justify programs or operations become unnecessarily restricted for lack 
of clear authority. The proper participation of Congress in the policy 
process will put the executive branch and the courts on a sounder 
footing and ensure longer-term planning for programs to properly 
develop.
    Resilience is another area of failure. The rise of the Islamic 
State and its high-profile atrocities have fostered the perception that 
the terrorist threat to the U.S. homeland has skyrocketed despite 
evidence to the contrary. It remains easy for a terrorist group or even 
some lucky amateurs to sow fear and disrupt the nation with even minor 
attacks--the Boston Marathon bombings, which killed three people, 
resulted in the shutdown of an entire metropolitan area impacting the 
whole country. Since 9/11, protecting the U.S. homeland from mass 
casualty terrorism is an understandable priority by which every 
president should be judged. But the post-9/11 standard is not simply to 
avoid mass casualty attacks but rather to stop all attacks on Americans 
everywhere--an impossibly high bar. For today's Americans, this high 
bar seems obvious, but it was not the standard for previous presidents: 
President Ronald Reagan suffered no major political penalty (and people 
rightly perceive him as tough on terrorism) despite Hizballah attacks 
on U.S. Marines and diplomats in Lebanon that killed hundreds and the 
death of 270 people from Libya's downing of Pam Am 103 in 1988. The 
current American public will not accept that small attacks are 
difficult to prevent and that a low level of terrorism at home 
demonstrates success, not failure.
    It is my hope that hearings such as these can both identify 
counterterrorism weaknesses that must be corrected and also educate the 
public that even the best counterterrorism policies cannot completely 
end this scourge.
------------------
Notes

    \1\ United Press International, ``U.S. Exposes al-Qaeda Sleeper 
Cells from New York to Florida to L.A.,'' Newsmax, October 31, 2002, 
accessed June 3, 2017, http://www.newsmax.com/Pre-2008/U-SExposes-al-
Qaeda-Sleeper/2002/10/31/id/668156/.
    \2\ Kristina Cooke and Joseph Ax, ``U.S. Officials Say American 
Muslims Do Report Extremist Threats,'' Reuters, June 16, 2016, accessed 
June 3, 2017, http://www.reuters.com/article/us-florida-shooting-
cooperation-idUSKCN0Z213U.
    \3\ Daniel Benjamin, ``What Comes after the Next Terrorist 
Attack,'' The Wall Street Journal, February 10, 2017, accessed June 3, 
2017, https://www.wsj.com/articles/what-comes-after-the-next-terrorist-
attack-1486740713.
    \4\ Clint Watts, ``Beyond Syria and Iraq, the Islamic State's HR 
Files Illuminate Dangerous Trends,'' War on the Rocks, June 1, 2016, 
accessed June 3, 2017, https://warontherocks.com/2016/06/beyond-syria-
and-iraq-the-islamic-states-hr-files-illuminate-dangerous-trends/.
    \5\ The Data Team, ``Terrorist Atrocities in Western Europe,'' The 
Economist, March 23, 2017, accessed June 3, 2016, http://
www.economist.com/blogs/graphicdetail/2017/03/terrorism-timeline.
    \6\ Martin Chulov, Jamie Grierson, and Jon Swaine, ``ISIS faces 
exodus of foreign fighters as its `caliphate' crumbles,'' The Guardian, 
April 26, 2017, accessed June 3, 2017, https://www.theguardian.com/
world/2017/apr/26/isis-exodus-foreign-fighters-caliphate-crumbles.
    \7\ Daveed Gartenstein-Ross, ``What Does the Recent Spate of Lone 
Wolf Terrorist Attacks Mean? War on the Rocks, October 27, 2014, 
accessed June 3, 2017, https://warontherocks.com/2014/10/what-does-the-
recent-spate-of-lone-wolf-terrorist-attacks-mean/.
    \8\ Rukmini Callimachi, ``Not `Lone Wolves' After All: How ISIS 
Guides World's Terror Plots from Afar,'' The New York Times, February 
4, 2017, accessed June 3, 2017, https://www.nytimes.com/2017/02/04/
world/asia/isis-messaging-app-terror-plot.html?_r=1.
    \9\ Michael Jensen, Patrick James, and Herbert Tinsley, ``Overview: 
Profiles of Individual Radicalization in the United States-Foreign 
Fighters (PIRUS-FF)'' (College Park, MD: START, 2016), accessed June 3, 
2017, https://www.start.umd.edu/sites/default/files/publications/
local_attachments/START_PIRUS-FF_InfographicSeries_April2016_0.pdf.
    \10\ Thomas Hegghammer, ``Should I Stay or Should I Go? Explaining 
Variation in Western Jihadists' Choice Between Domestic and Foreign 
Fighting,'' American Political Science Review (February 2013): 1-15, 
accessed June 3, 2017, http://hegghammer.com/_files/Hegghammer_-
_Should_I_stay_or_should_I_go.pdf.
    \11\ Justin McCarthy, ``Worry About Terror Attacks in U.S. High, 
but Not Top Concern,'' Gallup, March 23, 2016, accessed June 3, 2017, 
http://www.gallup.com/poll/190253/worry-terror-attacks-high-not-top-
concern.aspx?g_source=position1&g_medium=related&g_campaign=tiles.
    \12\ Aisha Gani, ``Targeting of London Muslims triples after Paris 
attacks,'' The Guardian, December 4, 2015, accessed June 3, 2017, 
https://www.theguardian.com/uk-news/2015/dec/04/attacks-against-london-
muslims-triple-in-wake-of-paris-attacks.
    \13\ Katayoun Kishi, ``Anti-Muslim assaults reach 9/11-era levels, 
FBI data show,'' Pew Research Center, November 21, 2016, accessed June 
5, 2017, http://www.pewresearch.org/fact-tank/2016/11/21/anti-muslim-
assaults-reach-911-era-levels-fbi-data-show/.
    \14\ Mohammed A. Malik, ``I reported Omar Mateen to the FBI. Trump 
is wrong that Muslims don't do our part,'' The Washington Post, June 
20, 2016, accessed June 3, 2017, https://www.washingtonpost.com/
posteverything/wp/2016/06/20/i-reported-omar-mateen-to-the-fbi-trump-
is-wrong-that-muslims-dont-do-our-part/?utm_term=.6bb0c520888d.
    \15\ Michael R. Gordon, ``U.S. Is Sending 400 More Troops to 
Syria,'' New York Times, March 9, 2017, accessed June 5, 2017, https://
www.nytimes.com/2017/03/09/world/middleeast/us-troops-syria.html?_r=0.
    \16\ Rex W. Tillerson, ``Remarks to U.S. Department of State 
Employees,'' (speech, Washington DC, May 3, 2017), Department of State, 
accessed June 4, 2017, https://www.state.gov/secretary/remarks/2017/05/
270620.htm.
    \17\ See J.M. Berger, ``Making CVE Work: A Focused Approach Based 
on Process Disruption,'' International Centre for Counter-Terrorism--
The Hague (May 2016), http://icct.nl/wp-content/uploads/2016/05/J.-M.-
Berger-Making-CVE-Work-A-Focused-Approach-Based-on-Process-
Disruption-.pdf.
    \18\ Jim Norman, ``Majority in U.S. No Longer Thinks Trump Keeps 
His Promises,'' Gallup, April 17, 2017, accessed June 4, 2017, http://
www.gallup.com/poll/208640/majority-no-longer-thinks-trump-keeps-
promises.aspx.
    \19\ Gartenstein-Ross, ``What Does the Recent Spate of Lone Wolf 
Terrorist Attacks Mean?''
    \20\ U.S. Government Accountability Office, Counterterrorism: DOD 
Should Enhance Management of and Reporting on Its Global Train and 
Equip Program, GAO-16-368 (Washington, D.C., 2016), accessed June 3, 
2017, http://www.gao.gov/products/GAO-16-368.
    \21\ Daniel Byman, ``Downbound Training,'' Lawfare, November 28, 
2016, accessed June 3, 2017, https://www.lawfareblog.com/downbound-
training.
    \22\ Daniel Byman and Jeremy Shapiro, ``We Shouldn't Stop 
Terrorists from Tweeting,'' The Washington Post, October 9, 2014, 
accessed June 3, 2017, https://www.washingtonpost.com/opinions/we-
shouldnt-stop-terrorists-from-tweeting/2014/10/09/106939b6-4d9f-11e4-
8c24-487e92bc997b_story.html?utm_term=.ac08d3e0f501.
    \23\ Jack Goldsmith, ``How Administration Lawyers Are Probably 
Thinking About the Constitutionality of the Syria Intervention (And A 
Note on the Domestic Political Dangers of Intervention),'' Lawfare, 
August 24, 2013, accessed June 3, 2017, https://www.lawfareblog.com/
how-administration-lawyers-are-probably-thinking-about-
constitutionality-syria-intervention-and-note.
    The Chairman. I was planning to go directly to Senator 
Cardin, like I normally do. I just wanted to ask one question, 
and then I will do so.
    The recent trip, then, to Saudi Arabia, where many of the 
Arab countries were there, 56 of the leaders were there, was 
seen by many as pulling together. You seem to think differently 
about that. I would love just to hear your thoughts.
    Dr. Byman: For the most part, sir, the trip was positive. 
Let me stress that. This was an ally that had come to question 
U.S. leadership in the region under President Obama, and it was 
good for President Trump to make a personal connection with 
Saudi leaders.
    But Saudi Arabia also heightens sectarianism in the region 
and, in general, has pushed an agenda that is not always 
positive for Americans. We need to recognize that, while Saudi 
Arabia is an important partner, it is not a country with whom 
we share many interests, and that distance is important as 
well, and we need to be critical.
    Instead, President Trump has seemed to embrace the Saudi 
position, such as the inter-Arab dispute with Qatar in a way 
that is, in my view, counterproductive.
    The Chairman. Yes, thank you for that.
    Senator Cardin?
    Senator Cardin. Chairman, that is the point I want to focus 
on for a few more minutes with both of our witnesses, if I 
might, because I am trying to figure out what the Trump 
administration's policy is in regards to the countries in the 
Middle East.
    I did not quite understand the comments in regards to Qatar 
coming from the administration, with 10,000 American troops in 
Qatar. And the point about the Saudis and Americans sharing a 
strategic partnership, but in many areas, we disagree on 
values, is also true of Qatar and true with almost every 
country in that region.
    So I am not sure what is the most effective policy. Yes, 
the Saudis are important partners in our campaign against ISIS, 
but they also have the Wahhabist ideas, which are filtering 
into some of the extremist debates in the region. They have 
also been a source of funding of significant terrorist 
activities globally.
    So what should our policy be in regards to these countries, 
Saudi I would put at the top of the list, in which we have 
strategic partnerships? They want to work with us. They 
generally prefer to work with the U.S. rather than any other 
major powers. But we have some significant differences. How do 
we develop that type of policy that effectively is targeted 
against ISIS but does not compromise American values or our 
partnerships with other countries in that region?
    Dr. Byman: Unfortunately, sir, there is not going to be a 
magic solution. We are going to have to live with some 
contradiction.
    Saudi Arabia is a necessary ally. On a day-to-day level, 
they provide valuable intelligence. And they are part of the 
broader coalition against the Islamic State, as is Qatar, as is 
the United Arab Emirates. But Saudi Arabia, in particular, but 
also other states, also fund an array of causes, preachers who 
preach sectarianism, anti-Semitism, anti-Americanism, and, in 
general, make it easier for the Islamic State and others to 
recruit.
    We have actually made progress, if you look over the last 
20 years, on important things like terrorism financing where 
there is still a problem, but, again, less than there used to 
be.
    I think steady pressure should continue, but, as your 
question articulates, we need to recognize that there is going 
to be distance between the United States and our allies, that 
we should have differences with these countries. We should be 
criticizing them. We should be pressing them. We should be 
using what leverage we have. But, at the same time, we cannot 
expect it to be a perfect relationship, because our interests 
and values are so different.
    Senator Cardin. So in response, Doctor, if you could--I 
agree with that response. And the Saudis do things that are 
against our interests. There is no question. But we have a 
strategic partnership that is important.
    I would make the same point about Qatar. They do things in 
financing terrorism that we disagree with strongly, and I do 
not necessarily agree with the Saudi decision, but I can 
understand the Saudis being so focused on Yemen, and Iran's 
cooperation in Yemen, that that influences their decision in 
regards to Qatar.
    Why would the United States reinforce that?
    Dr. Vidino. It is not an easy issue. The reality is that, 
on the visit that President Trump paid to Saudi Arabia, I think 
the idea that came out, at least in the West, was of an 
alliance, a Sunni bloc against extremism. And I think we 
interpreted most of that extremism being ISIS.
    In the region, I happened to be in the region that specific 
week. I was in Saudi. It was mostly interpreted as being 
Iranian extremism, Iranian influence.
    As much as some of those countries, Saudi included, are 
moving against ISIS, are moving partially against the ideology, 
I think I have seen a remarkable change in Saudi, not to 
mention in the UAE, when it comes to going after Wahhabi 
ideology and going after Islamist ideology, in general, I think 
there are still some problematic issues there.
    Qatar is the country that, to some degree, does not play 
along on the two issues, at least from a Saudi perspective. It 
still maintains a cozy relationship with Iran. It still 
maintains a more than cozy relationship with a variety of 
Islamist groups on the Sunni side of things.
    I think taking, though, a very strong position on this 
somewhat internal dynamic that is taking place in the gulf, I 
think is a bit too strong of a position. There are some 
agreements with all these countries. And, indeed, the strategic 
value of Qatar is undeniable, from a U.S. perspective.
    So I think we should be very careful in how we intervene 
there. And, to some degree, a neutrality that leads to a 
recomposition of that bloc, I think, would be the most useful 
position there.
    The Chairman. For what it is worth, I agree with that.
    Senator Young?
    Senator Young. Dr. Byman, I would like to pick up on this 
line of questioning related to sectarianism and the U.S. 
relationship with Saudi Arabia.
    In your prepared remarks, you make a significant and 
noteworthy charge against the Saudi Government indicating, 
``The Saudi Government continues to fund an array of preachers 
and institutions that promulgate an extreme version of Islam, 
enabling the Islamic State to recruit and otherwise gain 
support.''
    This issue recently came up in some conversations with the 
Saudi Foreign Minister. The Foreign Minister said, if we 
presented him with the evidence to support these assertions, he 
would take immediate steps to address it.
    Dr. Byman, can you present my office specific evidence, 
specific evidence that supports your assertion the Saudi 
Government is funding preachers and institutions that enable 
ISIS recruitment and support?
    Dr. Byman: I would be happy to give you an array of 
newspaper reports, U.S. Government reports, and so on.
    I will say, Senator, under President Bush and then 
President Obama, this has been a fairly steady dialogue, where 
information has gone about individuals who are seen as 
dangerous, so I do not think the Saudi Government is short on 
information.
    Senator Young. I want to give the Saudi Ambassador the 
courtesy of any sources you might have, so I will pass those 
on. Thank you.
    Moving on to another issue, Dr. Byman, in your prepared 
remarks, you observed that the United States is less vulnerable 
than our allies on account of geography and a host of other 
factors, which you identify, to terrorism.
    One factor was the American Muslim community and the strong 
relationship, or at least relatively stronger relationship that 
they have in this country than in other countries. I am 
wondering why that is, why it is, in your analysis, that they 
have a stronger relationship, and whether you would agree that 
this cooperation between the American Muslim community and law 
enforcement has prevented terrorist attacks in this country.
    Dr. Byman: The relationship is strong, in my view, for a 
number of reasons. Probably the most important is that a 
historic U.S. tradition of excellence is integrating different 
communities. This is just something our country has excelled at 
for several hundred years. So when people come here, they are 
quickly seen as Americans.
    And if I may share just one anecdote, I was talking to a 
colleague who works with refugees. And in Sweden, there was a 
Syrian refugee desperate to get to the United States. In 
Sweden, as a refugee, the first two years are paid for to learn 
Swedish. In the United States, we do not help that much. And 
the colleague was asking, ``Why on Earth would you want to come 
to the United States?'' And they said, ``Well, in Sweden, my 
kids will never be Swedish. In America, they will be 
American.'' That is a tremendous difference right there.
    And add to that, sir, the economic success, the educational 
success of the American Muslim community, and simply the 
cutting of ties that comes with distance, and this has been 
vital for counterterrorism success.
    Senator Young. So we want to remain one Nation----
    Dr. Byman: Yes, sir.
    Senator Young.--under God. And this is part of who we are. 
And to the extent that people who subscribe to the Islamic 
faith here in the United States feel isolated or ostracized or 
like they are part of the other, that undermines that notion of 
one Nation under God. Moreover, would you agree that also would 
undermine our law enforcement capabilities, our ability to 
deter future attacks?
    Dr. Byman: Yes, sir.
    Senator Young. Okay.
    Well, I think most people who I confer with, most Hoosiers 
from my State of Indiana, agree that the vast majority of 
Muslim Americans are patriots. They love this country every bit 
as much as we do.
    Would you agree that treating our fellow Americans who 
happened to be Muslim with the equality and respect through our 
words as well as our actions is one of the best ways to oppose 
ISIS and Al Qaeda's warped ideology and preserve our freedom 
here in this country?
    Dr. Byman: Yes, sir.
    Senator Young. Okay.
    I yield back.
    The Chairman. Before turning it over, just my first 
interjection.
    I understand you have done a body of work on extremism in 
our own country, and I think it would be helpful if you would 
just spend a moment talking about some of the teaching 
materials you are finding at cultural centers, some of the 
things you are seeing happening in our own Nation, that we do 
not even sometimes realize is occurring, to promote extremism 
here.
    Dr. Vidino. Sure. Thank you for the opportunity.
    What we do at the center is we basically monitor the ISIS-
related scene in the United States, the domestic scene, which, 
as Professor Byman was saying, is smaller than in most European 
countries.
    The bottom line, by the numbers, we basically have around 
120 people who have been arrested for ISIS-related activities 
since May 2014, when the first person was arrested. According 
to the FBI, we have around 200, 250 people who traveled or 
attempted to travel to Syria and Iraq.
    What we do is we basically try to understand who these 
people are, what motivates them, what the demographics are. And 
it is an extremely, first of all, very small, number of people, 
extremely heterogeneous group of people. Very odd thing, for 
example, is around 40 percent of them are converts. They tend 
to be young. They tend to be mostly men, but with a rising 
number of females.
    What we see as a big difference between the United States 
and Europe is that most of these people tend to be 
unaffiliated. They do not belong to somewhat sophisticated 
recruiting pipelines, like most of the Europeans. They are 
scattered individuals here and there who tend to use the 
Internet quite a bit to connect with groups in the Middle East, 
with groups of ISIS.
    The big difference is here. If you are an aspiring jihadist 
in Europe, it is fairly easy for you to find somebody in the 
physical space that will recruit you, that will open the gates 
of Syria, that will open the gates of ISIS to you. If you live 
in the United States, it is not impossible, but it is much more 
difficult.
    So these people tend to then go to the Internet and try to 
make connections with like-minded individuals and with 
recruiters, facilitators, online, which obviously makes it 
much, much easier for the FBI to intervene because it is 
online. But most of the cases start because the FBI observes 
the interactions, and you have some people who are quite 
unsophisticated in how they reach out to what they think are 
ISIS facilitators. That is how lot of the sting operations, a 
lot of the arrests, that is how they take place.
    Obviously, what we have seen, though, it is sort of the 
flipside of this unsophisticated dynamic of these individuals. 
Because they find it difficult to find gatekeepers to go to 
Syria, they try to carry out attacks domestically.
    I think Professor Byman was perfectly right in saying we 
have not seen the large attacks we have seen in most European 
countries. But by the number, we have actually seen quite a few 
attacks. Actually, in the last 3 years, we have seen 15 attacks 
in the United States. Now, granted, some of them are small and 
carried out by individuals who have also mental issues where 
they do reference ISIS.
    They clearly are consumers of ISIS propaganda. But they 
also have some personal psychological issues. But other times, 
they are unquestionably 100 percent driven by jihadist 
ideology.
    I think in some cases, their attacks, even though they are 
carried out independently without any form of outside support, 
they are quite lethal. Let's think of the Orlando shooting or 
the San Bernardino shooting. So the Internet plays a much 
bigger role here than physical networks play overseas.
    We do have also returnees, individuals who are coming back. 
Again, the numbers are much smaller than most European 
countries. I think the laws here are better than in most 
European countries. The system is better prepared to deal with 
those individuals.
    What we do not have here, though, is a system of 
prevention, of deradicalization, what is known as CVE, 
different incarnations of it. That is where the U.S. has been 
somewhat lacking.
    So on the repressive side, I think the system is quite 
equipped to deal with the threat. There is not a lot going on 
when it comes to the prevention part yet.
    The Chairman. Thank you very much.
    Senator Merkley?
    Senator Merkley. Thank you, Mr. Chair. Thank you both for 
your testimony.
    Dr. Vidino, you mentioned the ideological appeal of ISIS. 
And things that are sometimes mentioned is their interest in 
establishing a state, as perhaps compared to Al Qaeda; if you 
fight and die, you go directly to heaven.
    What specifically were you talking about when you talked 
about the ideological appeal that causes thousands of people to 
say they want to be in this battle, they want to be part of 
ISIS? What are the elements that are really driving this?
    Dr. Vidino. Unfortunately, I do not have an easy answer for 
you. Going back to what I was saying earlier about the 
heterogeneous profiles of the individuals who are attracted to 
this ideology, there is a variety of profiles, and different 
motivations guide each individual. We cannot think that what 
drives the Ph.D. student in Chicago and a 14-year-old kid in 
rural Somalia to be attracted to the same ideology is the same 
thing. Obviously, it is very geographical, very geographic-
specific, and it is very specific to individuals.
    Obviously, what ISIS has done, creating a territorial 
entity with some self-imposed religious value to it, has been 
historical. That is one of the main reasons that has triggered 
an unprecedented wave of recruits, of sympathizers to the 
cause.
    Al Qaeda tried before. Al Qaeda tried to create a 
territorial entity in a variety of places before. But ISIS was 
successful and was very good at also using the Internet to 
create valuable propaganda for its cause.
    There are some very deep geopolitical factors that need to 
be taken into consideration as to why people radicalize, so big 
issues from some of the actions in some countries, occupations 
of some countries, bad governance and so on, to very personal 
issues. I think when we look at why people radicalize, we have 
to look at politics, geopolitics. We also have to look at 
psychology, as to why individual people----
    Senator Merkley. I am going to cut you off there, just 
because of the limited time I have.
    Dr. Vidino. Sure.
    Senator Merkley. I realize you could give me an hour or two 
on that topic. I think it is important for us to wrestle with 
understanding those fundamental motivations, as we are engaged 
in this.
    Back to the Saudi funding, it seems like there has been a 
bit of a social contract, and maybe I will just ask both of you 
to comment, in which Saudi Arabia, which was itself a Wahhabist 
state, established, and now ISIS is almost a replica of it, 
driven by very similar motivations and this vision of the 
caliphate, and a vision that perhaps Saudi Arabia did not stay 
as pure to the cause as those individuals would have liked. But 
it seems like Saudi Arabia has funded operations all over the 
world, madrasas, that cultivate both hatred of the West and 
nurture violence.
    Is that the case? I will just ask both of you. Is that the 
case? There has been reference to getting Saudi Arabia to do a 
little less of this. But do we fully appreciate the impact that 
that funding has caused, in terms of the challenges we face 
with terrorism in the world?
    Dr. Vidino. I do not think we can overemphasize the role 
that Saudi Arabia has had over the last 40 years in spreading a 
certain extremely intolerant interpretation of Islam worldwide, 
even to places like the Balkans or Southeast Asia, where a 
traditionally very tolerant brand of Islam dominated. I think 
it is absolutely a big part of the problem.
    Senator Merkley. By Southeast Asia--Indonesia, the 
Philippines?
    Dr. Vidino. Yes, absolutely. It has changed the way parts 
of Islam locally is lived.
    Trying to see the flipside, I would say that over the last 
few years--again, we cannot overemphasize that aspect.
    What I will say is that part of the Saudi leadership over 
the last 2 or 3 years had somewhat understood part of the 
problem and to some degree are moving to end that. But there is 
a very strong pushback from parts of society.
    So 10 years ago, I would have told you, yes, the Saudi 
State funds a lot of activities, extremists and, in some cases, 
even terrorists. I think today it is a bit of a different 
answer, a bit more nuanced. I would say there are parts that 
still do that, and parts that push back.
    Senator Merkley. My last 20 seconds, Dr. Byman, would you 
like to add anything to that?
    Dr. Byman: Only that, for Saudi Arabia, there is some 
ideology behind it, but also, they see it as a weapon against 
Iran and other rivals, where if they can get their ideas in 
front of people, then Iran's other interpretation of Islam will 
be diminished. So that struggle back and forth with Iran has a 
lot of negative consequences for everyone else as well.
    Senator Merkley. Is it also part that, by funding things 
outside of Saudi Arabia, they are saying to folks leave us 
alone inside Saudi Arabia?
    Dr. Byman: Yes, sir. It is a way of legitimizing the 
government and saying, ``You see, we are doing good deeds. Look 
at what we are doing abroad.''
    Senator Merkley. Thank you.
    The Chairman. Thank you.
    Senator Paul?
    Senator Paul. Dr. Byman, do you think that any of Iran's 
desire to modernize their ballistic missile system is in 
relation to or competition with Saudi Arabia or the Gulf 
States, or in reaction to the armaments that they possess?
    Dr. Byman: To some degree, sir, yes. I think they have a 
number of motivations for modernizing their ballistic missile 
program, including their sense of threat from the United 
States, but also from the Gulf States.
    Senator Paul. Do you think there is an arms race, to a 
certain extent, between the Gulf States and Iran, that one side 
gets something, the other side thinks they have to go a little 
farther, and it goes back and forth?
    Dr. Byman: A little bit, sir. But the budgets are not even. 
The Iranians are, frankly, rather broke, despite the somewhat 
limited sanctions relief, and the Gulf States have a lot of 
money. So it is not a fair competition, from their point of 
view.
    Senator Paul. I think that is the good point to make, 
because I think the perceived danger of Iran is such around 
here that we think, oh my goodness, Iran is way ahead in the 
arms battle, and, in fact, they think they may need to catch 
up.
    So if we are interested in the perceptions of the two 
rivals in the Middle East, the perception of Iran and the 
actuality is they have a lot less money and they feel the need 
to catch up.
    So I guess then that leads to the question of, we have a 
pending sale of a large amount of weapons to Saudi Arabia. Do 
you think that encourages or discourages Iran from thinking 
they need to advance their ballistic missiles?
    Dr. Byman: I do think it encourages it, but, frankly, sir, 
they have a lot of other reasons they want to do it, so I do 
not think the impact is that significant.
    Senator Paul. All right. With regard to the war in Yemen, 
we not too long ago had an armed raid in there, and our 
soldiers went into a small village, killed some Al Qaeda 
operatives, and, unfortunately, killed their wives and children 
as well.
    Do not get me wrong, I do not blame our soldiers. They have 
a job to do, and they do what they are told to do. I do, 
frankly, though, blame the policymakers often. And I think they 
deserve some rebuke or some discussion of what the policy is.
    I guess my question is, do we create more terrorists than 
we kill when we go in and kill a handful of people in a remote 
village in Yemen? To my understanding, I think the oral 
tradition of those deaths of the people in that village will 
spread throughout the community and throughout the land, and 
they will remember it 100 years from now. Long after we are 
gone, there will still be people remembering that. And they 
will still hate the Saudis for it. They will hate us for it. 
They will hate us for supplying the Saudis with the bombs that 
have been dropped on funeral processions.
    I just think that when we are thinking about--we are 
talking about who we are fighting--it is like we are fighting 
an ideology, and, I mean, people just pop up. It is not like 
ISIS is calling you on the phone and saying attack. But people 
are attracted by this ideology, but they are attracted by it 
because they feel helpless, under assault, and they feel like 
we have all the weapons to destroy them anywhere, any time.
    So I guess the question is, do we want more manned raids in 
Yemen? Do we want to send troops into Yemen? Do we want to take 
the port back?
    There are people talking about a surge in Yemen. There are 
people talking about another surge in Afghanistan. Is this the 
way we are going to end the war on us, the terrorist war of 
attacking us? Are we going to end it by ratcheting up more wars 
in Yemen or Afghanistan?
    I will leave that question for both of you.
    Dr. Byman: Senator, I will take a first attempt.
    I would say that we are under assault both by groups and by 
an ideology, and the groups have to be attacked. So that may be 
a drone campaign. That may be allies who arrest them. That may 
be a counterinsurgency. But there does need to be some action 
against some of these groups on the kinetic side, on the 
balance side. That does not solve the problem, but that is 
necessary.
    However, that does not mean we have to go against every 
group in every country everywhere in the world. And I think one 
difficulty this country has had has actually been drawing 
limits. We can say the Islamic State is in many, many countries 
but it is only active in an anti-American sense in a few of 
those. We need to recognize which are priorities.
    And a big thing, Senator, I would say is that we need to 
improve our ability to help our allies, our programs to train 
them, to arm them, and to improve their capabilities, because 
that is the lasting solution.
    Senator Paul. Yes, but I guess with the Al Qaeda rebels in 
Yemen, they are actually fighting against the Houthis. They are 
sort of, ostensibly, on our side.
    Are we really making things better? Maybe they would be 
killed in battle with Houthis? Maybe they would decide, in 
aligning with the Saudi side, that they are more interested in 
taking back land from the Houthis.
    I just think that, ultimately, if we do that, I think we 
end up getting more blowback from it than killing a handful of 
people in a remote village in Yemen.
    We do have to protect ourselves. We do not want them coming 
here. We have to stop them, if they are plotting to attack us 
in an organized, sufficient way.
    But every rebel around the world, every time we kill one, 
we create 10 more. So I would have to disagree with you that 
going into a remote village in Yemen and saying that that--I 
mean, that is the policy you have to decide. Is that a good 
idea? I guarantee there are another couple hundred people just 
like that in Yemen.
    Do you want 10 more raids like that? Do you want to send 
our Navy SEALs into Yemen? Do you think that is a good idea? I 
think that that is a terrible idea.
    The Chairman. Senator Booker?
    Senator Booker. Thank you very much.
    Dr. Vidino, we are clearly making a lot of progress in the 
field in Syria. We are closing in on Raqqa. There is a lot of 
kinetic activity going on. There is significant progress, about 
60 percent of ISIS territory, and we are going to continue to 
make that progress with a lot of brave soldiers fighting in a 
very important war.
    But my biggest concern in this fight to keep Americans 
safe, my big concern, and I want to broaden this question a 
little bit, because obviously we are talking about ISIS but 
when I look at Boko Haram, when I look at Al Qaeda and their 
ability to inspire, their ability to recruit, the tools that we 
have at our behest clearly are military tools. But that is not 
my bigger concern right now, because what I worry about with 
this administration is the savage cuts that they are doing to 
State Department activities, to USAID, and the things that 
prevent communities from having soil fertile for extremism.
    It is outrageous to me that you have an administration out 
of one side of their mouths want to talk about being tough 
against ISIS and against terrorism. But probably what I would 
say, if you are looking at a toolbox, one of the most critical 
assets we have is the activities being done through diplomacy, 
through USAID, and through other CVE efforts that are not about 
military, but CVE efforts that really focus on countering 
violent extremism through Internet activities and through 
creating relationships in communities and stopping them from 
becoming fertile grounds.
    Can you comment on that for me for a moment?
    Dr. Vidino. Yes, Senator. I agree with you.
    I think, particularly in some parts of the world, it is 
crucially important to maintain a very strong diplomatic 
presence and to fund some activities on the ground, in terms of 
prevention of radicalization. I talked a lot about returning 
foreign fighters in my testimony. I think that is going to be 
one of the big issues.
    I am thinking, for example, in North African countries, we 
are going to see tens of thousands of people coming back. If 
there is no reintegration effort for these individuals--so some 
of them definitely need to be arrested, and we need to provide 
support with intelligence and with resources in that effort. 
Then some of them need to be reintegrated. Again, these are 
countries, I am talking about Mali, Niger, that have very, very 
limited resources that do need our help.
    I know about the situation in Mali where they are trying to 
reintegrate large numbers of people who are part of some of the 
rebel groups linked to Al Qaeda, some of them in the conflict 
there, and they do not have the financial support to do that. 
These are individuals that are likely to go one way or another 
in terms of joining, potentially, ISIS and Al Qaeda-affiliated 
groups.
    I think if the U.S., and not just the U.S., I think it is 
also a burden for European countries and for some gulf 
countries to provide financial support and do CVE there.
    Senator Booker. So I would like, and I am going to submit 
this question for the record, what are the specific programs 
that are being targeted for cuts that you think we should 
prioritize in the Senate to try to preserve?
    I listened to a national security expert speak in an 
interview recently, and they talked about everything, their 
worries about threats to American lives. They talk about 
everything from pandemics to terrorism. And they were focusing, 
though, not on what our military could accomplish but critical 
investment of resources.
    In the short time that I have left to both of the gentleman 
before me, I think what the President is doing in terms of his 
rhetoric is making Americans less safe. The way he talks about 
Islam through his campaign, and even right now the rhetoric he 
is using is making Americans less safe by not talking about 
this problem that creates more unity of action.
    I want to be even more specific. The Muslim ban that he has 
been trying to push, I believe, has sent wrong signals and is 
making Americans less safe. Even his immigration policy here at 
home, and I see this myself in New Jersey, which is undermining 
communication flows between--now communities are living in fear 
and now being pushed further in the shadows, because they are 
afraid of deportation. It is undermining the communications 
between communities that we need to have strong relationships 
with.
    So could you please, in the 15 seconds I have left, comment 
on that? And am I off base, for that opinion?
    Dr. Vidino. The rhetoric is not helpful. That is in my 6 
seconds that I have left.
    Dr. Byman: I will agree and simply add I worry tremendously 
about the aftermath of a terrorist attack in the United States, 
which will happen in the next 3.5 years. That is just the laws 
of probability. And I worry that, rather than bringing 
Americans together, we will be divided further.
    The Chairman. Thank you.
    Senator Booker. Thank you.
    The Chairman. Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Really, for both of you, I think it was 2003, President 
Bush made a major speech to the country following the 9/11 
disaster that we had in our country. He talked about the axis 
of evil being Iraq, Iran, and North Korea.
    Here we are, 17 years later or 15 years later. We know the 
story of Iraq, but we also know Iran is a provider of resources 
and encouragement for ISIS.
    What reach does North Korea have, if any? Or what evidence 
do we know of that North Korea may, in some way, be involved 
with ISIS or be aiding and abetting ISIS or providing ISIS with 
materiel that they otherwise would not get?
    Dr. Vidino. As far as I know, there is no connection. I 
might be missing something, but no connection.
    Dr. Byman: That is my knowledge as well, that there is no 
connection.
    Senator Isakson. In expanding ISIS's reach beyond where it 
is today in the Levant and Maghreb, it would take something 
like an enabler like North Korea or somebody else to really get 
them beyond the Middle East. Is that not correct?
    Dr. Byman: Sir, I would say that, as my colleague has 
pointed out, their ideology still has appeal to some people, 
and that enables them to make geographic leaps where it would 
be hard for them to do just with their people. So they have 
been able to reach out to Southeast Asia or parts of Africa 
even though they do not have strong kind of physical and 
geographic connections. So I would look for areas that are 
relatively weakly governed, where there might be sympathy for 
their ideology.
    Dr. Vidino. Yes, and I would say this does not necessarily 
require any formal state support. I think it is the ability to 
penetrate certain areas where governance is weak, where there 
is a lot of resentment. And also, I think in some countries 
that are more stable, I think I hear a lot about countries in 
the gulf, countries in Central Asia with relatively stable 
governments, but nonetheless strong support for the ideology 
and their ability to create sort of clandestine networks there.
    Senator Isakson. I was somewhat surprised--in fact, 
``somewhat'' is not the right word. I was very surprised with 
the recent attack in Iraq by ISIS. Is that any evidence of an 
expansion or a change in their mode of operation?
    Dr. Vidino. Do you mean the one in Iran?
    Senator Isakson. Iran.
    Dr. Byman: Iran has almost been enemy No. 1 for this group, 
frankly, ahead of the United States. It is a relatively hard 
target. They do not have sympathizers in Iran in a significant 
way, and the Iranian security services are brutal, but they are 
pretty competent.
    So they have been trying to do attacks on Iranian targets 
elsewhere. So this is, I think, actually their biggest success 
in the last year, frankly.
    Dr. Vidino. If I might add, I think from a propaganda point 
of view, this helps them a lot. The fact that they had not been 
able to attack Iran, which as Professor Byman was saying, 
arguably, ideologically, is enemy No. 1, was a big stain on 
their resume, if you will.
    And I think they will be promoting the fact that they were 
able to attack Iran in the very heart of the Iranian regime. I 
think that is something that they are going to be using a lot 
in propaganda.
    Senator Isakson. It appears that most of the attacks that 
we are seeing now are individually carried out by one or two 
lone-wolf type terrorists in isolated events using a motor 
vehicle or some type of terror like that. You referred to the 
next 3.5 years, it is an inevitable that we will probably have 
an attack of some type in the United States.
    Do you think the possibility of a bigger attack than an 
individual use of a lone wolf in a vehicle is something bigger 
than what we might anticipate? Or do you think we might see 
what is happening in Europe now come to the United States?
    Dr. Byman: I am hopeful that we will not see the scale and 
scope of attacks that we have seen in Europe in the United 
States. But because of our relatively open gun laws, you can 
kill more people with a gun than a knife, and it is relatively 
easy for someone to do so.
    So if you look at what happened in London, I just think, 
what if those people had had semiautomatic weapons, and how 
much more the carnage would have been. So I worry about that. I 
also worry about right-wing terrorism in the United States that 
has been accelerating and enabled.
    So I do think these are all possibilities. There is a 
degree of randomness with terrorism, where sometimes an attack 
will kill two, but the same type of attack in another country 
will kill 50. So I think we have to recognize that, even though 
it makes it hard to predict.
    Dr. Vidino. I think most of the attacks, as you correctly 
pointed out, have been carried out by one individual or a 
couple individuals with no operational connections. Even some 
of those can be very lethal, whether they use automatic 
weapons, as in the case of Orlando, or driving a truck, in the 
case of Nice in France, more than 80 people killed just by one 
guy with no affiliation driving a truck.
    I think the big question is whether we are going to see 
more of the structured, sophisticated attacks, which tend to be 
more and more lethal. Once ISIS loses its territory, will it be 
able to do so? I spoke about virtual planners, and I think that 
is something that enables them with very little investment to 
carry out a big return, in terms of sophistication of attacks.
    Senator Isakson. Thank you both very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to the witnesses for this great testimony. I want to 
ask you some questions about who we should work with to defeat 
ISIS's global reach.
    The head of the Joint Chiefs of Staff, General Dunford, 
recently reappointed by President Trump, says that Russia is 
our chief nation-state adversary. President Trump says, though, 
if there are ways we can work together with Russia to defeat 
ISIS, we should. And I agree with President Trump on that.
    So, for example, if the United States had intel about some 
ISIS attack on Russia, I would hope that we would share that 
intel with Russia, so that it could avoid it. Talk to us about 
potential for cooperating with Russia, lessons, pieces of 
advice, to defeat ISIS.
    Dr. Byman: Senator, I strongly agree that we want to find 
allies where we can, even if, as in the case of Russia, we are 
opposed to them on a host of other issues.
    The tension comes from things like intelligence-sharing 
where, obviously, in my view, if there were an attack, we, of 
course, would want to pass on any warning we had to save 
innocent lives. But with Russia, we should expect that they 
will try to take any information we give them and extract the 
intelligence sources and methods behind it. That is true in 
various ways for a host of other countries around the world. 
They are just not quite as good as the Russians are in doing 
that.
    We also need to recognize that one common form of 
assistance is U.S. training or technical support, especially 
signals intelligence. And when we give that, countries around 
the world will also use it against their domestic opposition. 
And we are often on the side of the domestic opposition against 
the government, even as we are on the side of the government 
against terrorists.
    So I do not have, again, this kind of magical answer of how 
to work with these rather disturbing allies, other than we will 
have to do things case by case and recognize the limits.
    Senator Kaine. Dr. Vidino?
    Dr. Vidino. I completely agree. I think it is case by case. 
But I think the Russians are in a position where they do hold a 
lot of important intelligence for our security, because of 
their presence on the ground in Syria, because a lot of the 
very experienced foreign fighters come from Russia, from the 
Caucasus, from the republics in Central Asia. The Russians know 
those dynamics very, very well.
    And I think we have to find a way, with all the caveats 
that Professor Byman expressed, in exchanging that information.
    Senator Kaine. So even though Russia is an adversary in 
many ways, the defeat of ISIS is an important goal. And with 
caveats and being cautious, we should appropriately do what we 
can together to defeat ISIS.
    Let me ask about Iran. The bombing in Tehran, the bombing 
of the Shia mosque in Kuwait in 2015, should we treat Iran 
differently? They are a nation-state adversary. But if ISIS is 
targeting them, and if there are ways that we can help them 
defeat ISIS, shouldn't we, with similar caveats, try to help 
them avoid the loss of innocent lives, as was experienced 
earlier this week?
    Dr. Byman: I hope the U.S. position is that we are strongly 
against many governments in the world but not against their 
people. And attacks on innocent people, they are innocent 
regardless of nationality.
    So I do believe the United States has, at times openly, at 
times tacitly, cooperated with Iran. Right after 9/11, the Bush 
administration cooperated with Iran against Al Qaeda. And under 
Obama and now President Trump, Iran is playing a major role in 
fighting the Islamic State, especially in Iraq. And, tacitly, 
there is information passed back and forth, often by the Iraqi 
Government.
    And this is always tough for Americans, but to recognize 
that we can be strongly against a country for 10 reasons and 
working with it on one, we should still try to do both when 
possible. It is not ideal. Iran is a nasty country. But at 
times, we have common interests.
    Senator Kaine. Dr. Vidino?
    Dr. Vidino. Again, I agree. I think we have a precedent on 
that when it comes to another group, the Mujahadeen-e-Khalq. 
They are an anti-Iranian regime. To some degree, some would 
argue that they serve our interests. I think the way the United 
States has treated the group, by designating them, is the right 
one, because they are a terrorist group, at the end the day.
    I think when it comes to those case-by-case tactical 
situations, I think there needs to be cooperation.
    At the same time, I am extremely concerned about the 
influence that Iran has in post-ISIS Iraq. And I think the 
Iraqi Government and special forces have done a terrific job in 
Mosul, but the disrupting impact the Iranian-sponsored militia 
have in that part of the country is of high, high concern and 
needs to be tackled. So it is obviously a very, very difficult 
dynamic there.
    Senator Kaine. And would you say it is somewhat analogous? 
I mean, Russia and Iran are very different countries, but they 
are both adversaries. We are both opposed to them in many ways. 
But they are both worried, in their own way, about ISIS. And if 
our goal is to defeat ISIS globally, we are going to have to 
work with other nations to do it. We cannot just do that on our 
own, correct?
    Dr. Vidino. I completely agree, but I think we have done 
that in the past. There is a tradition of doing that.
    We were talking about the axis of evil. We used to share 
information and work on some counterterrorism operations with 
Syria 10 years ago.
    So I think that is the nature of counterterrorism. You 
strike deals, maybe not publicly sometimes, with nasty regimes.
    Senator Kaine. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you. I know there was some discussion 
yesterday about having the bill we have on the floor. We, I 
think, cleared last night a condolence resolution, relative to 
many of the things you talked about, which we said we would do.
    Senator Kaine. I appreciate that. That is very important.
    The Chairman. I am just checking to make sure that it 
cleared last night, but I think that it did.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    I wanted to ask you both a question about the importance of 
conflict zones to the spread of extremist groups.
    We always have completing priorities in the Middle East, 
multiple competing priorities in Syria. We have very little 
interest in a political settlement that allows for Bashar al-
Assad to stay in power, so that has caused us to continue to 
fuel the fire of that fight, waiting until the perfect set of 
circumstances align, in which he can be removed from power.
    In Yemen, we ultimately want a transitional government 
there that has the least amount of Iranian influence as 
possible. So we feed the conflict there, hoping that there is a 
moment at which the Iranians walk away from the table.
    I would be interested to hear your thoughts on the 
importance of these continued local conflicts to the growth of 
groups like ISIS and how that should educate the decisions that 
we make. Should we be willing to set aside some of those 
competing priorities to create stable places and to end these 
conflicts? Or is it important to get the sort of transition 
government and the politics of a place right, and we should 
just let these things play out until the circumstances align 
with our interests in the region?
    Dr. Byman: Senator, I would say that is a vital question to 
me because the Islamic State and many of these groups, they 
feed on war. So if you look at Syria, if you look at Yemen, if 
you look at Iraq, if you look at other countries, they did not 
begin the conflicts there, but they became much stronger 
because of these conflicts.
    It is hard to imagine many of the problems we have globally 
with the Islamic State if they did not have the base in Iraq 
and Syria, if they were not able to use that cause to recruit, 
to fundraise, and so on.
    So we need stable regimes as a way of simply policing 
countries and arresting or killing terrorists. But we also need 
stability in order to decrease the ideological foment that 
enables these groups to recruit.
    Dr. Vidino. I agree. As difficult as it is, I think 
stability in some of these conflicts, even if it requires a 
certain degree of intervention, is crucial. Letting them play 
out, first of all, has a terrible impact on human life. There 
is a moral imperative, as controversial as that is, to 
intervene.
    These conflicts have a tendency to be used and abused by 
ISIS and other groups. They tend to sacralize some conflicts 
that start as purely ethnic or political. They tend to take on 
religious undertones, with time. I am thinking of Chechnya, for 
example.
    I think it is a case-by-case basis, obviously. But, 
generally speaking, it is not in our interest to let them play 
out.
    Senator Murphy. As you know, it is virtually impossible for 
any Republican or Democrat to get their heads wrapped around a 
future Syria with Bashar al-Assad or people close to him, who 
butchered his own people, continuing to have the reins of power 
there. But it is a fundamental question that we have to ask, 
because the consequences of waiting until that perfect moment 
are perhaps--the result of that is the increased opportunity 
for both groups to expand.
    Back to this Saudi question that a number of people have 
raised, I think we all agree that this has to be a higher 
priority in our discussions with the Saudis.
    Maybe starting with you, Dr. Byman, tell us about the 
degree to which the Saudi Government is able to control the 
money that moves out of that country, A, directly to groups 
that we do not like, but, B, to the spread of this version of 
Islam that some of us worry is at the foundation of some of 
these extremist groups. How much of this is under the Saudi 
Government's control? How much of it is not under their 
control?
    Dr. Byman: The Saudi Government has made truly significant 
progress in the last 15 years in stopping direct aid from their 
citizens to radical groups. The 2016 State Department report 
made clear they still have a way to go, but really spelled out 
a lot of the successes.
    So that is a little bit of good news. But that is different 
from the broader support for an array of extremist causes. 
There, that is something that the regime has been very hesitant 
to try to stop, in part because it sees it as an instrument of 
its competition with Iran, in part a form of status, and in 
part because it is a form of domestic legitimacy.
    So this is something that it is almost untested because it 
has not tried to do a significant crackdown. At times, there 
will be a quiet conversation, which in Saudi Arabia goes quite 
far if it is between the regime and certain power centers. But 
it has not been anything systematic and comprehensive.
    Dr. Vidino. Indeed, the barrier has been changed, I 
mentioned earlier, in the way the Saudis deal with the issue. 
Ten years ago, it would have been the Saudi Government 
completely funding these efforts. Now it is contested. You have 
particularly the new leadership quite aggressively moving and 
stopping certain flows of money not just to groups that are 
violent, but to the ideology in general.
    There is an enormous pushback. The nature of the Saudi 
state is based on a compromise between the Saudi royal family 
and the Wahhabi clergy. So breaking that deal, the agreement 
that exists, undermines the whole entire foundation of the 
country.
    It is a battle that the Saudi Government is, to some 
degree, fighting. But when you have organizations like the 
Muslim World League, the World Assembly of Muslim Youth, 
organizations that are partially public, partially nonpublic, 
that send millions and millions to a variety of extremist 
causes worldwide, it is that not easy. Particularly in a 
country where a lot of transactions are done on a cash basis, 
it is quite difficult to stop that.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you. This has been a great hearing. We 
thank you both for your contributions. We will keep the record 
open until the close of business on Monday.
    We understand you have other responsibilities, but to the 
extent you can answer any additional written questions 
promptly, we would appreciate it. Again, thanks for your 
service to our country and being here the way you have been 
today. It has been, again, very, very informative.
    With that, the meeting is adjourned.
    [Whereupon, at 11:09 a.m., the hearing was adjourned.]
                             
                             
                             ----------                              


              Additional Material Submitted for the Record


              Response of Dr. Lorenzo Vidino to Question 
                    Submitted By Senator Todd Young

    Question. In your prepared statement, you express concern about 
Daesh members fleeing Syria and Iraq and traveling to Europe and North 
America. In Dr. Byman's prepared statement, he assessed that the U.S. 
and our allies are not prepared for the ``likely diaspora of returning 
foreign fighters'' from Iraq and Syria. What do you assess the U.S. and 
our allies must specifically do to better prepare for the return of 
foreign fighters from Iraq and Syria that many have been predicting for 
quite some time?

    Answer. Any U.S. response to the return of foreign fighters from 
Syria and Iraq must account for the successes and failures of our 
allies and partners. While the United States faces a slightly more 
acute problem regarding returnees than other countries, due to the 
geographic, political, and societal landscape, our law enforcement and 
intelligence agencies will no doubt face significant challenges. As I 
argued in my testimony, the easiest (and currently implemented) 
solution for returning foreign fighters is to simply arrest them and 
process them through the legal system. Drawbacks to this method, 
however, include the possibility that individual fighters may slip 
through the cracks and evade our justice system. There are often 
difficulties with accessing and utilizing evidence that is provable in 
a court of law. While it is clear that the U.S. legal system may be the 
best destination for some returning foreign fighters, others may not be 
great candidates for prosecution.
    Foreign fighters vary in their level of involvement in ISIS 
operations and level of commitment to the organization's cause. Thus, 
determinations of appropriate responses to foreign fighters must occur 
on a case-by-case basis. Upon arriving in the IS, some foreign fighters 
quickly become disillusioned with the group's ideology and wish to 
return home to a normal life. Others embrace their new roles and begin 
working their way up the ranks. In short, some returning fighters are a 
good candidate for rehabilitation and others are not. Intelligence 
sharing between the U.S. and our allies is of the upmost importance 
when determining which returnees pose a significant threat of 
committing attacks on American soil. The U.S. must work with regional 
partners to determine which returnees have information on the 
capabilities, structure, and strategies of the Islamic State, and which 
returnees can be re-integrated into their communities with minimal 
intervention from law enforcement.
    For foreign fighters with well-documented crimes, the U.S. should 
turn to the legal system and not consider reintegration. If the result 
of intelligence sharing reveals strong evidence that the returnee 
willingly provided support to ISIS, fully understood the organization's 
ideology, committed violent acts, or showed no signs of 
disillusionment, there is reason to believe that this person would be a 
threat to the American public. If an arrest and a lengthy sentence is 
necessary to protect the public, then the U.S. should pursue this 
course of action.
    If the result of intelligence sharing shows any evidence that an 
individual stumbled unwittingly into ISIS, had no clear understanding 
of their mission, did not partake in violent acts, or regretted making 
the trip to Syria, the U.S. should explore rehabilitative methods. ISIS 
officials often employ recruitment methods that take advantage of 
socially marginalized individuals that seek sense of community and 
belonging. Rehabilitation can provide an off-ramp to radicalization 
that works to bring returning fighters into a safe and inclusive 
environment. Rehabilitation benefits the U.S. in two ways. First, 
returning fighters could provide valuable intelligence on ISIS 
strategy, safe house locations, and troop movement. Instead of 
prosecuting returning fighters, the U.S. and their allies could work 
with returnees to uncover ISIS activity. Second, a precedent of 
rehabilitative efforts provides incentive to foreign fighters that are 
considering a peaceful return to the U.S. A well-articulated off-ramp 
could help draw down ISIS troop levels, potentially preventing future 
violence.
    Thank you for your question and for the opportunity to speak 
Thursday.
                               __________

              Responses of Dr. Daniel Byman to Questions 
                    Submitted By Senator Todd Young

    Question. In your prepared remarks, you write that many counter 
violent extremism (CVE) programs ``are based on weak data and untested 
theories and demand scrutiny and oversight.'' Can you describe your 
concerns regarding U.S. government CVE programs in more detail and 
suggest how they should be strengthened? Do you have any specific 
concerns or recommendations related to the Department of State's Global 
Engagement Center (GEC)?

    Answer. CVE has become a catch-all term, and it includes many 
programs that are more oriented toward development than fighting 
terrorism. At times there are untested or even false assumptions about 
the role of poverty or poor education in fomenting terrorism, so 
programs to fight these ills are justified in the name of national 
security. Although I often favor these programs for humanitarian 
reasons, we should not think they are useful for fighting terrorism.
    For more specific CVE programs, long-term analysis is necessary. 
The effects are likely to be diffuse, and given the analytic 
uncertainty over many key questions (e.g. how do you define 
radicalization?), this field is in its infancy. The programs are often 
cheap and the potential benefits are considerable, so I favor 
continuing most and even expanding them, but we should not think these 
are ready to substitute for other counterterrorism programs at this 
time.
    The State Department's Global Education Center (GEC) can play a 
useful but minor role in fighting terrorist ideology and 
communications. Particularly valuable are efforts to support and 
amplify voices from allied countries that might have credibility among 
would-be jihadists. However, government communications tend to be bland 
and slow, often by design, so it is difficult to respond in real-time 
to terrorists. More importantly, the actions and words of U.S. leaders 
do (and should) count or much more than what comes out of the GEC, 
which plays no role in determining policy but merely tries to adjust 
its messaging in response to it.

    Question. Elsewhere in your prepared remarks, you state that, 
``Washington should coordinate an international policy to identify and 
arrest these fighters,'' returning to Europe and elsewhere. I would 
hope that the Obama administration started doing that and that this 
administration is building on their efforts. Is that not the case?

    Answer. I am not privy to classified information on this question, 
which is where the scope and scale of any U.S. effort would be 
detailed. To my knowledge, intelligence professionals in the Obama 
administration and now the Trump administration are trying to track 
foreign fighters in a systematic way. However, European and Arab 
responses remain uneven, and coordinating a response to returnees has 
not been a policy priority for senior U.S. officials. As a result, 
there is not a full coordinated response.

    Question. In Dr. Vidino's prepared statement, he expressed concern 
about Daesh members fleeing Syria and Iraq and traveling to Europe and 
North America. In your prepared statement, you assess that the U.S. and 
our allies are not prepared for the ``likely diaspora of returning 
foreign fighters'' from Iraq and Syria. What do you assess the U.S. and 
our allies must specifically do to better prepare for the return of 
foreign fighters from Iraq and Syria that many have been predicting for 
quite some time?

    Answer. In addition to sharing intelligence to identify suspected 
fighters, the United States must encourage resourcing of security 
services. As the recent attacks in the United Kingdom made clear, 
security services may know someone is potentially dangerous, but if 
they do not have sufficient resources that person may not be monitored 
or may otherwise be allowed to conduct or support an attack. When 
appropriate, the United States should offer direct assistance to 
upgrade allies' intelligence capabilities. In addition, many allies do 
not have robust laws to monitor and arrest returnees. Finally, many 
countries, including the United States, need to work on ``off ramps'' 
so that those returnees who come away disillusioned or traumatized have 
a way to leave the jihadist world and reintegrate into mainstream 
society. Even many contrite returnees should have appropriate 
punishment and monitoring, but a draconian one-size-fits-all for 
returnees a mistake.
    The State Department emphasizes countering violent extremism (CVE) 
in its diplomacy, but funding for these programs is limited in 
practice. Cuts to diplomats and to the overall State and USAID budgets 
will further imperil these efforts.
    The State Department also funds an array of programs designed to 
build capacity of partner nations to fight the Islamic State and other 
jihadist groups. These include the Antiterrorism Assistance program 
(ATA); Global Counterterrorism Forum (GCTF) to exchange best practices; 
the Regional Strategic Initiative (RSI) to build partner capacity; and 
Counterterrorism Partnerships Fund (CTPF) to build criminal justice 
programs and other civilian capacity. In addition, the State Department 
sponsors regional programs such as the Trans-Sahara Counterterrorism 
Partnership (TSCTP).
    Capacity-building programs are vital for preventing the Islamic 
State from reestablishing itself should it lose all its territory, as 
it did in Iraq after the U.S.-led surge brought it low. These programs 
should be expanded and integrated more with those of other government 
agencies, particularly the Department of Defense, and those of the U.S. 
military.
    The United States cannot, and should not, fight jihadists wherever 
they appear. Some parts of the world are marginal to U.S. interests, 
and even in more vital areas the United States should only bear part of 
the burden. Efforts to build capacity will have many problems stemming 
from the political and socioeconomic weaknesses of U.S. partners. 
Nevertheless, they are relatively cheap compared with deploying U.S. 
troops and offer a potential long-term solution.
                               __________

              Response of Dr. Lorenzo Vidino to Question 
                    Submitted By Senator Cory Booker

    Question. Question on State Department Budget Cuts: The U.S., our 
partners in the anti-ISIS coalition, and U.S. backed Syrian fighters 
are leading an assault on Raqqa, ISIS's capital. We are clearing ISIS-
held territory and striking the heart of the caliphate. Yet attacks in 
Manchester, London, Tehran show that while we are making strides 
militarily in Iraq and Syria, the battlefield is far broader in terms 
of geography and more complex in terms of the tools it demands we 
employ.

    Vital to any comprehensive strategy, and showing the truth of their 
depraved ideology is through the use of programs at the State 
Department and USAID.
    Yet, President Trump wants to hamper our ability to defeat ISIS by 
significantly cutting State Department and USAID funding.
    What programs at the State Department and USAID should we 
prioritize to help us stop the spread of ISIS's ideology? What type of 
programming at the State Department and USAID would preclude another 
insurgent force such as ISIS to develop once ISIS is militarily 
defeated?
    Answer. Thank you for your questions. Unfortunately, it is 
incredibly difficult to single out a specific program or type of 
programming that could preclude the rise of a post-ISIS insurgent 
group. Current and previous State Department and USAID programs that 
focus on halting the dissemination of violent extremist ideologies have 
varied in their effectiveness. While ce1tain programs from both 
agencies have been effective in countering the spread of violent 
extremist ideologies on a limited scale, successes and failures of 
programs must be evaluated on a case-by-case basis. Specific regions' 
and countries' stability and counterterrorism resources differ from one 
to the next, and can affect the impact of programming. Thus, a program 
or method that effectively reduces recruitment to violent extremism may 
be effective in one area, but fail outright in another.
    That being said, both the State Department and USAID have 
implemented programs that could be used, in some form, as a model for 
future efforts. One such program is the State Department's Global 
Counterterrorism Forum (GCTF) which began in September 2011 and has 
since then organized over $200 million to support counterterrorism-
related rule of law institutions for countries that are shifting away 
from emergency law. The program additionally seeks to set in place 
practices that provide guidance to countries and create a stronger 
unity within global counterterrorism efforts.
    USAID programs have had more varied success, although it too has 
implemented several successful countering violent extremism (CVE) 
programs. One program, the Pakistan Transition Initiative, focuses on 
strengthening social and political development within communities in 
Pakistan that are vulnerable to conflict. In West Africa, USAID has 
implemented the Regional Peace for Development II (PDEV II). The PDEV 
IT strives to build social ties within communities in Niger, Chad, and 
Burkina Faso to create stable environments and prevent recruitment by 
extremist organizations. By strengthening communities, these programs 
can assist in preluding radicalization and violent extremism.
    In general, a good guideline for countering violent extremism and 
deradicalization programs implemented by both the State Department and 
USAID is that the more individualized to a particular area, the more 
likely it is to produce measurable results and ultimately success. 
Programs with smaller target populations have experienced a great deal 
of accomplishments elsewhere around the world, and both the State 
Department and USAID could make a larger effo1t to implement programs 
aimed at individuals rather than whole societies.
    Thank you for your question and for the opportunity to testify 
before the committee on the 8th.
                               __________

               Response of Dr. Daniel Byman to Question 
                    Submitted By Senator Cory Booker

    Question. Question on State Department Budget Cuts: The U.S., our 
partners in the anti-ISIS coalition, and U.S. backed Syrian fighters 
are leading an assault on Raqqa, ISIS's capital. We are clearing ISIS-
held territory and striking the heart of the caliphate. Yet attacks in 
Manchester, London, Tehran show that while we are making strides 
militarily in Iraq and Syria, the battlefield is far broader in terms 
of geography and more complex in terms of the tools it demands we 
employ.
    Vital to any comprehensive strategy, and showing the truth of their 
depraved ideology is through the use of programs at the State 
Department and USAID.
    Yet, President Trump wants to hamper our ability to defeat ISIS by 
significantly cutting State Department and USAID funding.
    What programs at the State Department and USAID should we 
prioritize to help us stop the spread of ISIS's ideology? What type of 
programming at the State Department and USAID would preclude another 
insurgent force such as ISIS to develop once ISIS is militarily 
defeated?

    Answer. The State Department emphasizes countering violent 
extremism (CVE) in its diplomacy, but funding for these programs is 
limited in practice. Cuts to diplomats and to the overall state and 
USAID budgets will further imperil these efforts.
    The State Department also funds an array of programs designed to 
build capacity of partner nations to fight the Islamic State and other 
jihadist groups. These include the Antiterrorism Assistance program 
(ATA); Global Counterterrorism Forum (GCTF) to exchange best practices; 
the Regional Strategic Initiative (RSI) to build partner capacity; and 
Counterterrorism Partnerships Fund (CTPF) to build criminal justice 
programs and other civilian capacity. In addition, the State Department 
sponsors regional programs such as the Trans-Sahara Counterterrorism 
Partnership (TSCTP).
    Capacity-building programs are vital for preventing the Islamic 
State from reestablishing itself should it lose all its territory, as 
it did in Iraq after the U.S.-led surge brought it low. These programs 
should be expanded and integrated more with those of other government 
agencies, particularly the Department of Defense, and those of the U.S. 
military.
    The United States cannot, and should not, fight jihadists wherever 
they appear. Some parts of the world are marginal to U.S. interests, 
and even in more vital areas the United States should only bear part of 
the burden. Efforts to build capacity will have many problems stemming 
from the political and socioeconomic weaknesses of U.S. partners. 
Nevertheless, they are relatively cheap compared with deploying U.S. 
troops and offer a potential long-term solution.

                                  [all]
</pre></body></html>
